No.
IN THE

Supreme Court of the United States
KT CORPORATION, KTSAT
CORPORATION,
Petitioners,
v.
ABS HOLDINGS, LTD., ABS GLOBAL,
LTD.,
Respondents.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals For The
Second Circuit
PETITION FOR WRIT OF CERTIORARI
PAUL A. WERNER
PWERNER@SHEPPARDMULLIN.COM
Counsel of Record
IMAD S. MATINI
MATTHEW G. HALGREN
SHEPPARD, MULLIN, RICHTER & HAMPTON LLP
2099 Pennsylvania Avenue, Suite 100
Washington, DC 20006
202.747.1900
Counsel for Petitioners

i
QUESTION PRESENTED
If a foreign company absconded with a U.S.
strategic satellite, in the face of orders of our
government mandating its return, no court would
recognize an arbitral award declaring that move
“perfectly lawful” and U.S. actions to recover it
“unauthorized” and “poor and unacceptable.”
But our courts enforced just such an award when
it was the Republic of Korea’s national interests at
stake. Korea declared the sale of a geostationary
satellite by KT Corporation and KTSAT Corporation
(“KTSAT”) to ABS Holdings, Ltd., and ABS Global,
Ltd. (“ABS”), null and void, unwound it, and imposed
corrective actions.
Despite these enforcement
actions, however, ABS forcibly wrested control of the
satellite, flew it to a different orbital location, and
used it to attack Korea’s national interests.
When the parties then arbitrated commercial
disputes, the tribunal declared Korea’s actions
lacked “credibility,” were “ultra vires,” and violated
U.S. due process standards. On those grounds, it
awarded ABS title to the satellite and enjoined
KTSAT from complying with Korea’s enforcement
actions. The District Court and Court of Appeals
enforced the award. The question presented is thus:
Does the doctrine of international comity bar our
courts from enforcing arbitration awards that are
based on a tribunal’s conclusion – in excess of its
limited mandate to resolve contract issues – that a
foreign government violated its own laws?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioners KT Corporation and KTSAT
Corporation certify that KT Corporation, a publiclytraded company, is the parent corporation of KTSAT
Corporation, its subsidiary.

iii
PROCEEDINGS BELOW
U.S. District Court for the Southern District of
New York, Case No. 1:17-cv-07859-LGS-DCF, KT
Corporation et al. v. ABS Holdings, Ltd. et al., Order
Closing Case entered September 5, 2018.
U.S. Court of Appeals for the Second Circuit,
Case No. 18-2300, KT Corporation et al. v. ABS
Holdings, Ltd. et al., Judgment entered September
12, 2019.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
CORPORATE DISCLOSURE STATEMENT ........... ii
PROCEEDINGS BELOW ......................................... iii
TABLE OF APPENDICES .........................................v
TABLE OF AUTHORITIES ..................................... vi
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 9
REASONS FOR GRANTING THE PETITION ...... 25
I.

The Second Circuit’s Rejection Of
The
Korean
Government’s
Enforcement Of Its Own Laws
Injects Dangerous Instability
Into The International Comity
Doctrine That Undermines Its
Core Policy. ......................................... 26

II.

The Second Circuit Set A
Dangerous
Precedent
By
Allowing An Arbitral Body To
Exceed Its Mandate To Override
A
Foreign
Nation’s
Law
Enforcement. ....................................... 33

CONCLUSION ......................................................... 38

v
TABLE OF APPENDICES
Page
APPENDIX A – ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, FILED
SEPTEMBER 12, 2019 ....................................... 1a
APPENDIX B – OPINION AND ORDER OF
THE
UNITED
STATES
DISTRICT
COURT
FOR
THE
SOUTHERN
DISTRICT OF NEW YORK GRANTING
PETITION TO CONFIRM FINAL AWARD
AND DENYING CROSS-PETITION TO
VACATE FINAL AWARD, FILED
JULY 12, 2018 .................................................. 12a
APPENDIX C – CORRECTED OPINION
AND ORDER OF THE UNITED STATES
DISTRICT
COURT
FOR
THE
SOUTHERN DISTRICT OF NEW YORK
DENYING PETITION TO VACATE
PARTIAL AWARD AND GRANTING
CROSS-PETITION
TO
CONFIRM
PARTIAL AWARD, FILED JULY 10, 2018 .... 27a

vi
TABLE OF AUTHORITIES
Page
Cases
Anderson v. N.V. Transandine
Handelmaatschappij,
27 N.Y.S.2d 547 (1941) ........................................27
AT&T Technologies, Inc. v.
Communications Workers,
475 U.S. 643 (1986) ..............................................34
Daewoo Motor Am., Inc. v. General
Motors Corp.,
459 F.3d 1249 (11th Cir. 2006)............................29
First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938 (1995) ..............................................33
General Elec. Co. v. Deutz AG,
270 F.3d 144 (3d Cir. 2001) .................................28
Goss Int’l Corp. v. Man Roland
Druckmaschinen Aktiengesellschaft,
491 F.3d 355 (8th Cir. 2007)................................33
Gross v. German Found. Indus.
Initiative,
456 F.3d 363 (3d Cir. 2006) .................................31
Hartford Fire Ins. Co. v. California,
509 U.S. 764 (1993) ........................................31, 33

vii
Hilton v. Guyot,
159 U.S. 113 (1895) .................................. 27, 30, 37
JP Morgan Chase Bank v. Altos Hornos
de Mexico, S.A. de C.V.,
412 F.3d 418 (2d Cir. 2005) .................................28
In re Kinoshita,
287 F.2d 951 (2d Cir. 1961) .................................35
Lamps Plus, Inc. v. Varela,
139 S. Ct. 1407 (2019)..........................................37
LG Display Co. v. Obayashi Seikou Co.,
919 F. Supp. 2d 17 (D.D.C. 2013) ........................29
Mediterranean Enterprises, Inc. v.
Ssangyong Corp.,
708 F.2d 1458 (9th Cir. 1983)..............................36
Michigan Cmty. Servs., Inc. v. N.L.R.B.,
309 F.3d 348 (6th Cir. 2002)................................31
Mujica v. AirScan Inc.,
771 F.3d 580 (9th Cir. 2014)..........................31, 33
Oetjen v. Central Leather Co.,
246 U.S. 297 (1918) ........................................27, 37
PHH Corp. v. CFPB,
839 F.3d 1 (D.C. Cir. 2016) ............................20, 21
PHH Corp. v. CFPB,
881 F.3d 75 (D.C. Cir. 2018) ................................21

viii
Republic of Philippines v. Westinghouse
Elec. Corp.,
43 F.3d 65 (3d Cir. 1994) .....................................28
Ricaud v. Am. Metal Co.,
246 U.S. 304 (1918) ........................................27, 37
Societe Nationale Industrielle
Aerospatiale v. U.S. Dist. Court for
S. Dist. of Iowa,
482 U.S. 522 (1987)..............................................27
Stolt-Nielsen S.A. v. AnimalFeeds Int’l
Corp.,
559 U.S. 662 (2010) .................................. 34, 35, 37
Sung Hwan Co. v. Rite Aid Corp.,
850 N.E.2d 600 (N.Y. 2006) .................................27
Totem Marine Tug & Barge, Inc. v. N.
Am. Towing, Inc.,
607 F.2d 649 (5th Cir. 1979)................................34
Turner Entm’t Co. v. Degeto Film
GmbH,
25 F.3d 1512 (11th Cir. 1994)..............................28
Underhill v. Hernandez,
168 U.S. 250 (1897) .................................. 27, 28, 37

ix
Volt Information Sciences, Inc. v. Bd. of
Trustees of Leland Stanford Junior
Univ.,
489 U.S. 468 (1989) ..............................................35
Western Employers Ins. v. Jeffries &
Co.,
958 F.2d 258 (9th Cir. 1992)................................34
Statutes
9 U.S.C. § 16 ................................................................1
9 U.S.C. § 201 ..............................................................1
9 U.S.C. § 202 ..............................................................1
9 U.S.C. § 203 ..............................................................1
28 U.S.C. § 1254 ..........................................................2
28 U.S.C. § 1291 ..........................................................1
28 U.S.C. § 1331 ..........................................................1
Other Authorities
Gary B. Born, International
Arbitration: Cases & Materials (2d.
ed. 2015) ...............................................................21
Gary B. Born, International
Arbitration: Law & Practice (1st ed.
2016) .....................................................................21

x
Gary B. Born, International Civil
Litigation in United States Courts
(5th ed. 2011) .......................................................22
Gary B. Born, International
Commercial Arbitration (2d. ed.
2014) ......................................................... 21, 34, 35
ITU Radio Regulations Chapter III,
§ 11.49 (2016) .......................................................10
Jeyup S. Kwaak, South Korea Orders
Telecommunications Operator to Buy
Back Satellite, WSJ (Jan. 3, 2014) ........................2
Restatement (Third) of Foreign
Relations Law § 441 (1987) .................................31
Wassenaar Arrangement ..........................................15
William S. Dodge, International Comity
in American Law, 115 Colum. L.
Rev. 2071 (2015) ............................................28, 29

1
KT Corporation and KTSAT Corporation
(“KTSAT”) respectfully petition for a writ of
certiorari to review the judgment of the United
States Court of Appeals for the Second Circuit.
OPINIONS BELOW
The opinion of the Second Circuit, App. 1a, is
unreported but is available at 2019 WL 4308992 and
2019 U.S. App. LEXIS 27707. The July 10, 2018
order, App. 27a, and July 12, 2018 order, App. 12a,
of the District Court are also unreported but are
available at 2018 WL 3364390 and 2018 U.S. Dist.
LEXIS 115268, and at 2018 WL 3435405 and 2018
U.S. Dist. LEXIS 116386, respectively.
JURISDICTION
The District Court had subject matter jurisdiction
under 28 U.S.C. § 1331 and the Convention on the
Recognition and Enforcement of Foreign Arbitral
Awards (“FAA”) of June 10, 1958 (“Convention”), as
enforced under 9 U.S.C. § 201 et seq. The arbitration
is between two foreign parties and falls under the
Convention, which “arise[s] under the laws and
treaties of the United States.” Id. at §§ 202 & 203.
The Court of Appeals for the Second Circuit had
jurisdiction pursuant to 28 U.S.C. § 1291 and 9
U.S.C. § 16(a)(1)(D). The Second Circuit issued its
opinion on September 12, 2019.

2
This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
INTRODUCTION
This most improbable dispute centers on the
wrongful seizure and misappropriation of a strategic
satellite orbiting in outer space 36,000 kilometers
above the Earth by a satellite venture based in the
People’s Republic of China (“PRC”), and the
legitimate actions by Korea to recover it.
The Wall Street Journal aptly described this case
as an “outer-space turf war,” and where it has ended
up – after years of arbitral proceedings and judicial
review – is deeply troubling.1 The Court should
review it now to address issues of significant
national and international importance. It provides
an ideal vehicle for the Court to dispel longstanding
confusion over the international comity doctrine that
has bedeviled lower courts and to ensure uniformity
and consistency in the doctrine’s application in the
context of judicial review of arbitral awards.
KTSAT manages Korea’s satellite fleet. In 2010,
it agreed to sell to ABS, a private-equity backed

Jeyup S. Kwaak, South Korea Orders Telecommunications
Operator to Buy Back Satellite , WSJ (Jan. 3, 2014),
http s://w ww .w sj .co m/amp/article s/so uth- kore a-o rderstelecommunications-operator-to-buy-back-satellite-1388749638.
1

3
Bermuda company headquartered in Hong Kong, a
“retired” strategic geostationary satellite known as
Koreasat-3, or KS-3. The parties agreed KTSAT
would operate KS-3 for ABS under the Korean
Administration and it would remain at the 116° East
position assigned to Korea for its exclusive use by
the International Telecommunications Union (“ITU”)
– an arm of the United Nations that oversees the
global assignment and use of finite satellite orbital
positions and related radiofrequencies.
It was
imperative for KS-3 to remain at 116° East to
“protect” Korea’s ITU priority rights at that
location – which are subject to challenge if not
consistently maintained – and for KTSAT to provide
emergency communications services to the people of
Korea.
Once the Korean government learned of the
parties’ transaction, however, it swiftly moved to
protect its national strategic assets, broadcast
resources, and orbital rights. Multiple branches of
the Korean government undertook to investigate the
legality of the transaction, declare it unlawful in
violation of multiple mandatory laws, unwind it,
impose corrective actions, and punish corporate
decisionmakers involved.
Korea’s Legislative Branch held hearings to
challenge the legality of the sale. Multiple Executive
Branch agencies – the Ministry of Trade, Industry,
and Energy (“MOTIE”) and the Ministry of Science
ICT and Future Planning (“MSIP”) – investigated

4
the transaction too. MOTIE determined the sale
violated Korea’s export control law, the Foreign
Trade Act (“FTA”), which protects the nation’s peace
and security, because the parties transferred a
national strategic asset – a space launch and flight
vehicle – without obtaining a required FTA permit.
MOTIE referred the matter for criminal prosecution.
The MSIP issued an Order holding the sale null
and void because it violated the FTA and other
telecommunications laws.
The MSIP imposed
corrective actions and penalties, including ordering
the parties to unwind the sale and ordering KTSAT
to operate KS-3 as it had before the transaction. The
Korean courts later convicted and imposed serious
criminal sanctions on decisionmakers involved in the
sale for failure to obtain an FTA permit.
While Korea acted against the sale, ABS executed
on a carefully-calculated secret plan to seize control
of and move KS-3 that it set in motion when the
parties first entered the transaction. After MOTIE
determined the sale violated the FTA, ABS forcibly
seized operational control of KS-3 from KTSAT by
deceiving KTSAT and a third party. The day of the
Order, ABS then “brought into use” – i.e., announced
it was initiating service under – an ITU filing made
years earlier by falsely stating KS-3 had always
operated under Papua New Guinea’s (“PNG’s”)
Administration, not Korea’s. This move threatened
KTSAT’s priority rights at 116° East because if it did
not have a satellite there under continuous use, the

5
ITU could revoke its rights. ABS then physically
flew KS-3 to PNG’s newly-minted 116.1° East
position – a position so close to where KS-3 was
located ABS could not even operate the satellite
there unless it deprived Korea of its rights to operate
at 116° East. In other words, ABS weaponized KS-3
to secure orbital rights by suppressing Korea’s
priority rights.
The upshot of ABS’s actions are undisputed. ABS
took and moved KS-3 in the face of Korea’s actions
against the transaction. By wrongfully switching
KS-3’s flag from Korea to PNG and relocating it,
ABS also prevented KTSAT from providing
emergency services to Korea and caused it to lose
valuable orbital rights forever.
After ABS moved KS-3, the parties commenced
arbitration before a three-person tribunal to address
commercial disputes arising from their voided
transaction, which centered on issues of performance
and damages. These proceedings resulted in a
majority issuing a Partial Award and a Final Award.
Although multiple arms of the Korean
government declared the sale illegal and void under
mandatory laws, the majority in its Partial Award
held the sale was “perfectly lawful,” awarded ABS
title to KS-3, required KTSAT to deliver equipment
to fly the satellite to ABS, and enjoined KTSAT from
“interfering” with KS-3’s ongoing operations. The
majority sua sponte ruled Korea’s actions were
“unauthorized” and even violated these foreign

6
parties’ supposed
process rights.

American

constitutional

due

While
it
found
Korea’s
actions
were
“unauthorized” and the sale was “perfectly lawful,”
the same majority nevertheless relied on those very
actions in its Final Award to hold KTSAT breached
obligations to obtain and maintain necessary Korean
authorizations. The majority also held ABS did not
have to pay KTSAT for KS-3, even though ABS
enjoyed uninterrupted use of the satellite and was
awarded title to it.
The third tribunal member – Gary Born, the
world’s foremost authority on international
arbitration – was compelled by “conscience” to issue
separate dissents from the awards because “nothing
in the arbitral tribunal’s mandate, U.S. laws or
principles of procedural fairness justifies these
extraordinary results.”
KTSAT sought to vacate the awards, but the
District Court found they had a “colorable
justification” and the Second Circuit affirmed that
judgment. In doing so, the Second Circuit blessed
the tribunal’s rejection of Korea’s enforcement
actions against the parties’ transaction, as well as its
decision to override those enforcement actions – a
flagrant departure from its limited mandate.
This surprising outcome raises significant and
important issues, and the Court should grant the
petition to address them. Our Nation and this Court

7
have long recognized the international comity
doctrine requiring recognition of foreign decrees. We
respect valid foreign decrees in the interest of
comity, because we have a fundamental national
interest in foreign nations respecting our own
government’s actions. Despite the vital importance
of this doctrine, however, its ill-defined and vague
contours have spawned confusion among lower
courts, leading them to adopt a diversity of
understandings and applications.
Even still, the Second Circuit’s opinion stands
apart as an extreme outlier and out of step with this
Court’s precedent. That court permitted the tribunal
to flout international comity and interfere with
foreign relations by commanding KTSAT to violate
Korean law under the guise of resolving simple
contract disputes. And by enforcing the tribunal’s
diktat, that court forced KTSAT into the very
impossible compliance dilemma the international
comity doctrine guards against.
If our courts allow private arbitrators to
countermand the enforcement actions of a friendly
democratic nation intended to protect its peace and
security – on the basis their judgments have some
“colorable justification” – we have no real policy of
recognizing foreign decrees and we can expect other
nations to show our government’s actions the same
“comity.” That is a dangerous precedent with far
reaching and untoward consequences. If a Chinese
company had absconded with a U.S. strategic

8
satellite, in the face of orders of our government
mandating its return, no court would recognize an
award declaring that move “perfectly lawful” and
U.S. actions to recover the satellite “unauthorized”
or “poor and unacceptable.”
The comity doctrine is of course designed to avoid
this kind of foreign relations fiasco, and this case
represents a perfect opportunity for the Court to
provide lower courts crucial guidance on how to
assess and respect valid foreign decrees to protect
our own national interests. The Court has not
seriously treated the doctrine during the last quarter
century despite the broad recognition it is critical for
foreign relations and comity among nations. The
time is ripe to do so to ensure courts understand how
to apply the doctrine correctly.
While the Court has also been careful to hold
arbitrators, who derive power solely from party
consent, to their express mandates, it has never
confronted how courts are to apply the international
comity doctrine when called on to review and enforce
awards that reject foreign governmental actions.
The troubling result here illustrates why that
guidance is necessary. Despite the core tenet that
parties are entitled to arbitration according to the
terms they contractually agree upon, the Second
Circuit enforced awards resting on the tribunal’s
resolution of issues far outside its mandate – and
competence. The tribunal was not asked, and was
not empowered, to review or pass on the legality or

9
wisdom of Korea’s enforcement actions against the
transaction. As this Court has warned against, the
tribunal assumed the role of a roving “good
governance” committee to dispense its own
unauthorized and idiosyncratic brand of “industrial
justice.” In approving that approach, the Second
Circuit has created uncertainty and confusion about
how courts are to review awards that reject foreign
decrees and mandate violations of foreign law.
STATEMENT OF THE CASE
KTSAT entered a novel transaction with ABS for
the sale and operation of KS-3, which had outlived
its planned life expectancy. Joint Appendix (“JA”)
110–11.2 The parties entered a Purchase Agreement
for ABS to buy KS-3 and “baseband equipment”3 as
well as an Operations Agreement for KTSAT to
operate KS-3 on ABS’s behalf. JA247 & 277.
These agreements are complicated instruments
and reflected a number of critical provisions to
ensure KTSAT and Korea maintained their rights to
use the orbital location where KS-3 was located for a
future planned satellite and to use KS-3 to provide
“JA” refers to the Joint Appendix filed in KTSAT’s appeal to
the Second Circuit, which is located at Dkt. Nos. 45–47 & 52.
2

Baseband equipment is the part of a satellite “ground
station” between the radio frequency terminal and the
terrestrial interface used to assemble and disassemble user
information for the satellite uplink and downlink.
3

10
critical back up communications services to Korea’s
residents. The parties agreed KTSAT would fly KS3 under the Korean flag and it would remain at
Korea’s assigned 116º East orbital position. The ITU
had assigned Korea the highest priority globally to
exploit certain frequencies at that position.4
Confidential Joint Appendix (“CA”) 40.5 KS-3’s
location and continued use was essential to “protect”
Korea’s priority rights, which could be threatened or
lost if KTSAT failed consistently to maintain them,
and
for
KTSAT
to
provide
emergency
communications services.
Purchase Agreement
The parties entered a Purchase Agreement for
the sale of KS-3.
Because the satellite
communications sector is highly regulated, the
agreement addressed regulatory approvals required
for KS-3’s sale and operation.
Obtaining
governmental approvals is critical and benefits both
The ITU coordinates telecommunications operations around
the world, and it manages global assignments of finite orbital
positions and coordinates frequency uses. In doing so, the ITU
can revoke orbital assignments that are not used for three
years – which is a brief window given the time it takes to plan,
order, construct, launch, and position a satellite. See ITU
Radio Regulations Ch. III, § 11.49 (2016).
4

“CA” refers to the Confidential Joint Appendix filed in
KTSAT’s appeal to the Second Circuit, which is located at Dkt.
No. 53.
5

11
parties given their transaction could not lawfully
proceed unless they obtained all necessary
approvals. The parties also faced governmental
sanctions and penalties if they failed to obtain any
required approvals. KTSAT was thus required to
“obtain all necessary licenses, consents and
approvals for the sale of the Satellite and the
Baseband Equipment.” JA254 & 261.
Transfer of title to KS-3 and the baseband
equipment was expressly conditioned upon the
parties obtaining all necessary governmental
approvals. Title passed to ABS if – and only if – it
paid the purchase price and the parties obtained
“any necessary approvals and licenses, including the
U.S. State Department approval [i.e., International
Traffic in Arms Regulations (“ITAR”) approval] and
the approvals and consents required for and during
the Orbital Slot Use Period.” JA260; JA171.6
The agreement required KS-3 to remain at 116°
East and precluded ABS from moving it. Neither
ABS nor any third party could unilaterally relocate
KS-3 to another orbital position. Only KTSAT could
relocate KS-3 to an “orbital slot(s) other than the
Designated Orbital Position,” and it could only do so
under specific and limited circumstances. JA259.

Title to KS-3 and the baseband equipment would return to
KTSAT if “ABS defaults in its obligations to pay.” JA261.
6

12
In recognition of KTSAT’s obligations to provide
emergency services, KTSAT could preempt ABS’s
use of twelve of KS-3’s transponders to provide such
services. JA255 & 257. The right to preempt service
was of critical importance for KTSAT to provide
emergency services to over four million Koreans.
Operations Agreement
The
Purchase
Agreement
required
the
simultaneous execution of an Operations Agreement
governing KTSAT’s operation of and engineering
support for KS-3. JA260.
KTSAT agreed to provide telemetry, tracking,
and control – “TT&C” – and other services to “fly” or
“operate” the satellite from an earth station on
ABS’s behalf in exchange for service fees. JA284.
The parties also agreed ABS would pay KTSAT
“Technical Engineering Service Fees” (“TE fees”)
totaling “at least” $11.2 million. JA285 & 301–04.
The TE fees were part of KS-3’s purchase price.
JA284–85, 301–04, 850–51, 855–57 & 878.
The agreements also contained carefully
negotiated and expressly limited dispute resolution
provisions.
Any dispute “aris[ing] under” the
Purchase Agreement, JA268, or “arising out of” the
Operations Agreement, JA294, was subject to
arbitration under the auspices of the International
Chamber of Commerce (“ICC”) Court of Arbitration.
Both agreements are “governed by and construed in

13
accordance with the federal and state laws” of New
York. JA270 & 293.
Korea Determines KS-3’s Sale Violated Korean
Law And Imposes Corrective Actions
When Korea learned of the KS-3 sale, multiple
branches of government began to investigate and
take actions to unwind it to protect Korea’s national
strategic assets, broadcast resources, and orbital
rights. Korea’s Legislative Branch – the National
Assembly – held multiple hearings questioning the
legality of the sale. JA113–15.
Multiple Executive Branch agencies also
investigated and took actions against the sale.
MOTIE requested the Korean Prosecutor’s office to
investigate the KS-3 transaction based on its
determination the parties’ transaction violated the
FTA. JA465. It held the parties “failed to obtain the
necessary export permissions required for the sale of
KS-3,” which involved the “export” of a “strategic
good” under the FTA. Id.
The
MSIP,
which,
like
our
Federal
Communications Commission, is the Korean
Executive Branch agency responsible for regulating
the communications industry and licenses KTSAT,
also initiated an enforcement proceeding to address
the transaction. JA114. KTSAT and ABS had notice
of the MSIP proceedings and a full and fair
opportunity to persuade the agency. JA864–67.
ABS retained Korean counsel to “explain[ ] and

14
emphasize[ ] to the MSIP” the potential impact of
the agency’s actions on its services. JA865.
The MSIP ultimately issued an Order declaring
the sale of KS-3 void ab initio, unwinding it, and
imposing corrective actions. JA306–07 & 562. The
MSIP concluded the sale violated multiple laws,
including the FTA, Telecommunications Business
Act, and Radio Waves Act.
JA306–07 & 562.
Accordingly, the Order held the transaction KTSAT
“entered into with ABS, an overseas satellite
business operator, is null and void, since it is in
violation of the mandatory law [FTA].” JA306.
The MSIP Order also required KTSAT to take
corrective measures necessary to “protect the
satellite orbit and the spectrum, both of which are
national resources.” JA306. The MSIP ordered
KTSAT to hold title to and operate KS-3 as it had
before the transaction. JA562.
Korea’s actions unwinding the transaction
involved enforcement of its mandatory laws,
including its national export control law.
The
operative version of the FTA was enacted, and the
Enforcement
Decree
implementing
it
was
promulgated, long before the parties contemplated
any satellite sale.7 The FTA governs the export of
Korea enacted the operative version of the FTA, which makes
it mandatory to obtain export approvals for transfers of
strategic goods like satellites, in 2007. JA555–56. In 2008 and
7

15
strategic goods – such as satellites – and protects
Korea’s national security interests and international
peace. JA324. Actions in violation of the FTA are
void ab initio. JA306–07 & 328.
The FTA is akin to the United States’ ITAR
export controls in purpose and effect. The FTA
satisfies Korea’s obligations as a signatory to the
Wassenaar
Arrangement,
which
“promot[es]
transparency” and regulation of the transfers of
“conventional arms and dual-use goods and
technologies.”
The Wassenaar Arrangement,
https://www.wassenaar.org.
The U.S. is also a
signatory to the Wassenaar Arrangement, and it
carries out its obligations through the ITAR and its
Export Administration Regulations.
In addition to the actions of the MSIP against the
transaction, Korean law enforcement officials
commenced criminal prosecutions of key executives
involved in the sale. JA332–43. In January 2016,
KTSAT executives, one of whom acted as an agent
for ABS, were convicted in Korean judicial
proceedings of criminal violations of Korean law for
assisting in the unlawful export of a strategic asset.
Id. The court held the sale of KS-3 required an FTA
permit, that no permit had been obtained, and
2009, MOTIE promulgated an Enforcement Decree reinforcing
that the FTA’s export permit provisions are “mandatory
provisions.” JA560.

16
consummating the transaction without a permit
violated mandatory Korean law. Id.
The court explained the executives “sold a
strategic item to a foreign corporation without the
necessary approval or permit, which is the satellite
operating in one of the limited number of orbit slots
with high-performance transponders on it.” JA342.
It therefore concluded “[t]his is not a minor crime”
and imposed serious criminal penalties. Id.
Even before the MSIP issued its Order, ABS
purported to terminate the Purchase Agreement
because KTSAT allegedly failed to obtain all
“necessary approvals and licenses,” a condition
precedent to passage of title to KS-3. JA260 & 345–
47. ABS also stopped paying KTSAT the TE fees it
owed towards the purchase price. CA72.
ABS Skyjacks KS-3 In Defiance Of Korea’s
Enforcement Actions Against The Transaction
Unbeknownst to KTSAT, long before any
disputes arose, ABS had coordinated with the PNG
Administration to make a filing at the ITU to
operate KS-3 from 116.1° East, which is immediately
adjacent to Korea’s 116° East location (where KS-3
was supposed to remain). JA349. Given the close
proximity of these locations, satellites could not be
operated from both locations without impairing
Korea’s existing ITU rights.

17
After ABS learned the MSIP would take action
against the transaction, it triggered its 116.1° East
filing. ABS seized operational control of KS-3 from
KTSAT by overpowering the signal KTSAT used to
operate it. CA2–8 & 26–31; JA587–88. Promptly
after the MSIP issued its Order, ABS flew KS-3
away from Korea’s 116º East to PNG’s 116.1º East
position. To make these moves, ABS switched KS3’s “flag” from the Korean Administration to the
PNG Administration and represented to the ITU
that it had operated the satellite under the PNG flag
all along. This misrepresentation allowed ABS to
secure orbital rights it could never have obtained
otherwise. It also allowed the PRC Administration,
which held the second-highest priority at 116° East
behind Korea, to suppress Korea’s existing orbital
rights. JA37–38 & 366–69; CA16–24.
By skyjacking KS-3, ABS escalated the parties’
contractual dispute to an international conflict that
resulted in ABS and China obtaining orbital rights
at KTSAT’s and Korea’s expense. ABS secured
orbital rights it could never have obtained if it had
not seized and moved KS-3. Korea and KTSAT, as
the operator of Korea’s satellite fleet, lost forever the
ability globally to exploit certain radiofrequencies
from the 116° East orbital position and provide
emergency
services
in
Korea
and
other
communications services in other important regions
outside Korea. CA40 & 94.

18
There was no need for ABS to take these actions
and inflict these harms, which it expressly
recognized would be “catastroph[ic]” for Korea.
JA319. ABS has always enjoyed uninterrupted use
of KS-3. And when the transaction was challenged,
KTSAT offered to preserve the status quo and avoid
any service issues by transitioning the arrangement
to a lease authorized by the Korean government.
KTSAT even offered to buy back KS-3 and guarantee
services to ABS. CA55–56.
The Tribunal Exceeds Its Mandate And
Rejects Korea’s Enforcement Actions
The parties ultimately commenced arbitral
proceedings to resolve commercial disputes arising
under their agreements.
ABS brought claims
against KTSAT, and KTSAT brought counterclaims
against ABS, all of which focused on issues of
contractual performance, breach, and damages.
A year after the arbitration commenced, the
tribunal issued Terms of Reference setting forth the
parties’ positions, requested relief, and issues for
resolution. JA392–415. The Terms of Reference
limited “the issues to be determined in this
arbitration” to those “resulting from the Parties’
submissions during the arbitration.” JA406.
The parties submitted extensive briefing,
authorities, and evidence in support of their
respective positions. Neither party presented for
decision the issue whether the MSIP Order, or any

19
other actions taken by Korea, was authorized, valid,
or binding. Neither party argued the Order was
unauthorized, ultra vires, or violated American
constitutional due process.
To the contrary, the validity and binding nature
of the Korean government’s actions were common
ground in the arbitration. Both parties assumed and
relied on Korea’s actions to support their respective
positions, and the record evidence demonstrated the
legitimacy and validity of those actions. JA313–17,
322, 325, 330, 526–34, 538 & 541.
Partial Award. On July 18, 2017, a two-member
majority of the tribunal issued a Partial Award
granting ABS title to KS-3, despite Korea’s actions to
nullify the sale and order KTSAT to operate it.
JA96. While title was a hotly contested issue under
the parties’ purchase agreement, the majority
resolved it by addressing matters that neither party
raised, briefed, or presented evidence on, were
nowhere found in the Terms of Reference, and did
not even arise out of the parties’ agreements.
The majority’s determination hinged on its sua
sponte conclusion that Korean law did not bar the
sale and Korea’s actions holding it null, void, and
criminal were, in the majority’s subjective opinion,
“poor,” “unacceptable,” without “credibility,” and
“unauthorized.” In the face of Korea’s enforcement
actions, the majority declared that “the transfer of
the Satellite was perfectly lawful.” JA204.

20
The majority announced the MSIP Order was
“unauthorized” and “Korean law did not require an
FTA export permit.” JA178–79; JA173–74, 180 &
186–87.
Because Korean export approval was
unnecessary in its view, the majority found ABS
satisfied all conditions precedent to transfer of title
to KS-3. JA195. The majority concluded “[n]o
existing Korean mandatory law, regulation, rule, or
practice was violated when title passed” to ABS.
JA187. The majority disregarded Korea’s actions to
unwind the sale and criminally punish the
decisionmakers involved because the government’s
actions
were
supposedly
(and
somehow
inappropriately) influenced by politics. JA185–186,
188–89, 192–94 & 198–99.
The majority even
declared the Order was “unauthorized” and of “no
effect” based on its view the MSIP exceeded its
jurisdiction. JA194.
Even though the issue was not presented to the
tribunal or argued by either party, the majority
further determined the MSIP’s Order violated
American constitutional due process “rights” of these
entirely foreign parties because it was a “very poor
and unacceptable precedent.” JA206. In doing so,
the majority relied on a U.S. Court of Appeals for the
District of Columbia Circuit decision – PHH Corp. v.
CFPB, 839 F.3d 1 (D.C. Cir. 2016) – that it came
across entirely on its own and was decided after the
proceedings closed. Id. But the D.C. Circuit vacated
PHH Corp. before the majority issued its award, so
the one “relevant” case on which the majority based

21
its bizarre due process holding was not good law
when the majority relied on it. See Order Granting
Petition for Rehearing En Banc, PHH Corp. v.
CFPB, No. 15-1177 (Feb. 16, 2017).8
Without reference to any authorities or
submissions from the parties – and in the face of
orders and rulings from Korean executive agencies
and courts – the majority declared the MSIP Order
“was not law and was not accepted public policy,”
“there is no mandatory law in this case governing
the regulations of satellite sales,” and “there was no
such Korean law to violate at the relevant times, or
at any time.” JA208–09. The majority therefore
awarded ABS title to KS-3, ordered KTSAT to
deliver baseband equipment to ABS, and enjoined
KTSAT from “interfering” with the satellite’s
ongoing operations. JA210–11.
The third member of the tribunal, Gary Born,
dissented.9 JA214. Born did so “exceptionally”
In PHH Corp., the D.C. Circuit considered whether the U.S.
Consumer Financial Protection Bureau’s (“CFPB’s”) singledirector structure violated Article II of our Constitution. 839
F.3d at 7. When the D.C. Circuit reheard the case en banc, it
held the CFPB’s structure is constitutional. See PHH Corp. v.
CFPB, 881 F.3d 75, 84 (D.C. Cir. 2018).
8

Born literally wrote the book – indeed many books, articles,
seminars, and lectures – on international arbitration. See, e.g.,
Gary B. Born, International Arbitration: Law & Practice (1st
ed. 2016); Gary B. Born, International Arbitration: Cases &
Materials (2d. ed. 2015); Gary B. Born, International
9

22
because the majority’s “decision is so far removed
from the parties’ agreement and the results
mandated by applicable law that conscience
compel[led]” him to record his dissent. Id. He
explained “the majority’s decision disregards the
parties’ submissions in these proceedings, the
unequivocal language of the parties’ contractual
agreements, the terms of directly-relevant Korean
regulatory and judicial rulings and the content of
applicable New York law.” Id. As a consequence,
“the majority purports to sanction the unlawful
misappropriation of a strategic asset of a sovereign
foreign state, ignoring the laws of that state and the
express conclusions and directions of both that
state’s courts and governmental authorities, thereby
causing the state, and [KTSAT], grave and
potentially permanent injury.” Id.
Born explained the majority’s refusal to recognize
Korea’s actions to unwind the sale was procedurally
and substantively improper. JA224–25. He pointed
out the “majority’s conclusions are . . . impossible to
reconcile with the specific and unequivocal holdings
of Korean regulatory and judicial bodies” finding the
sale null and void and imposing corrective actions
and criminal sanctions on the parties. JA215. The
majority could not merely brush aside Korea’s
Commercial Arbitration (2d. ed. 2014); Gary B. Born,
International Civil Litigation in United States Courts (5th ed.
2011).

23
actions as influenced by politics because “it is not the
proper role of this Tribunal to speculate about the
domestic political motivations for the MSIP’s Order
or to criticize the governance or regulatory policy of
foreign states.”
JA225.
“The Tribunal’s only
mandate is to apply the law, not to make subjective
judgments about domestic Korean . . . political
affairs or to offer its views about good governance or
regulatory practice.” Id.
Born further explained the majority’s conclusions
that the Order was “unauthorized” and “ultra vires”
were “extraordinary” and “indefensible, both
procedurally and substantively.” JA225–26 & 228.
Not only were those conclusions “outside the arbitral
tribunal’s mandate and wholly mistaken,” but the
Order was entitled to a “weighty presumption of
validity” and the majority reached its opposite
conclusion “without any party to this arbitration
having made such an assertion, or providing expert
or other evidence to support it, or having been
afforded an opportunity to address the issue.”
JA228.
Born further explained “[t]he majority cites no
authority for the extraordinary proposition that
either Korean or U.S. law would allow private
parties to, by contract, exempt themselves from
export controls aimed at protecting national
security.” Id. Even applying New York law, Born
concluded “the consequences of the illegality of the
Purchase Contract under Korean law are to

24
invalidate the contract” because “New York law
would not give effect to the terms of the Purchase
Contract which were in violation of Korean
mandatory law and which had given rise to criminal
liability under Korean law.” Id.
Final Award. The same majority later issued a
Final Award addressing the commercial disputes the
parties actually submitted for arbitration. JA733.
Despite holding the MSIP Order was invalid in the
Partial Award, in the Final Award the majority
expressly relied on that Order to hold KTSAT
breached the agreements by failing to obtain and
maintain all necessary governmental approvals. Id.
It further concluded ABS did not need to pay KTSAT
for the satellite the majority had earlier awarded
ABS title to because the MSIP Order “nullified the
sale.” JA748. Born again dissented because the
Final Award “disregard[ed], and sanction[ed] the
violation of, mandatory Korean law and judicial
orders,” and “was wrong and exceed[ed] the
Tribunal’s authority.” JA797.
Proceedings Below
KTSAT petitioned the District Court to vacate
the Partial Award. JA13. ABS cross-petitioned to
confirm it. JA602.
While the parties’
the majority issued its
to confirm the Final
petitioned to vacate it,

petitions remained pending,
Final Award. ABS petitioned
Award, JA728, and KTSAT
JA843.

25
The District Court confirmed the Awards. App.
12a–45a. The Court of Appeals affirmed. App. 1a–
11a.
REASONS FOR GRANTING THE PETITION
The Court should step into this outer-space turf
war to settle issues of significant national and
international importance.
The tribunal issued
awards, which the lower courts in turn blessed, that
are based on the express rejection of legitimate
governmental enforcement actions by Korea to
recover a strategic asset and protect its national
orbital and broadcast rights. The parties did not ask
the tribunal to make any such ruling, and it clearly
lacked any authority (or competence) to do so.
While our Nation and this Court have long
recognized the international comity doctrine – which
mandates judicial recognition of foreign decrees – its
vague contours have been a perennial source of
confusion among lower courts that has resulted in a
diversity of understandings, applications, and
outcomes. Yet, among these diverse approaches the
Second Circuit’s opinion stands as an outlier that
forces KTSAT into the very kind of impossible
compliance dilemma the policy guards against.
As such, this case provides an excellent
opportunity for the Court to supply much needed
guidance to lower courts on how to assess, and the
proper recognition to give, foreign decrees. Despite
the broad recognition the doctrine is critical for

26
foreign relations and comity among nations, and the
existing confusion over its scope and application, the
Court has not seriously treated the doctrine during
the last quarter century. As the world shrinks and
foreign relations become more fraught, it is ever
more imperative our courts understand how to apply
the doctrine correctly.
With the rise of the role of arbitrations in our
legal system, this Court has also been careful to hold
arbitrators, who derive power only from party
consent, to their express mandates. But the Court
has never addressed how courts are to apply the
international comity doctrine when called on to
review and enforce awards that purport to override
foreign governmental actions. This troubling case
illustrates the need for and importance of guidance
on that issue.
I. The Second Circuit’s Rejection Of The
Korean Government’s Enforcement Of Its
Own Laws Injects Dangerous Instability
Into The International Comity Doctrine
That Undermines Its Core Policy.
Our Nation has a firm and sound policy, which
has been observed by this Court and others for well
over a century, to recognize valid foreign decrees.
Without hesitation, this Court has invoked comity to
give force to a wide array of actions by foreign
sovereigns without regard for the circumstances and
reasons behind them – even when those actions were
taken by revolting government officials in the midst

27
of civil wars and coups. See Oetjen v. Central
Leather Co., 246 U.S. 297, 302–03 (1918); Underhill
v. Hernandez, 168 U.S. 250, 254 (1897).
The reason, as this Court has explained time and
again, is because “courts of one independent
government will not sit in judgment on the validity
of the acts of another done within its own territory.”
Ricaud v. Am. Metal Co., 246 U.S. 304, 309–10
(1918); see Hilton v. Guyot, 159 U.S. 113, 164 (1895);
Sung Hwan Co. v. Rite Aid Corp., 850 N.E.2d 600,
603 (N.Y. 2006). Accordingly, “the details of such
action or the merit of the result cannot be questioned
but must be accepted by our courts as a rule for their
decision.” Ricaud, 246 U.S. at 309–10. Sound policy
imperatives inform this rigid approach.
The doctrine of international comity is rooted in
the doctrine of comity among nations – that is, the
“recognition which one nation allows within its
territory to the legislative, executive, or judicial acts
of another nation.”
Hilton, 159 U.S. at 164
(emphasis added). The doctrine thus applies as “the
comity of the nation, and not merely the comity of
the courts.”
Anderson v. N.V. Transandine
Handelmaatschappij, 27 N.Y.S.2d 547, 552 (1941),
aff’d, 289 N.Y. 9 (1942) (citing Hilton, 159 U.S. at
163; Bank of Augusta v. Earle, 38 U.S. 519, 589
(1839)). Under the doctrine, then, “[w]hatever laws
are carried into execution, within the limits of any
government, are considered as having the same
effect everywhere.” Societe Nationale Industrielle

28
Aerospatiale v. U.S. Dist. Court for S. Dist. of Iowa,
482 U.S. 522, 543–44 n.27 (1987) (quoting Emory v.
Grenough, 3 U.S. 369, 370 (1797)).
The doctrine promotes our vital national
interests.
International comity fundamentally
depends on reciprocity: the failure to accord
deference to foreign rulings “invites similar
disrespect for our judicial proceedings.” General
Elec. Co. v. Deutz AG, 270 F.3d 144, 160 (3d Cir.
2001). In light of this fundamental purpose, the
policy of recognizing foreign decrees is not one of
convenience or discretion – it is mandatory. See
Underhill, 168 U.S. at 252.
Despite the necessity of international comity, and
our Nation’s and this Court’s recognition of it, it is
plagued by significant misunderstanding. Indeed,
“[f]or a principle that plays such a central role in
U.S. foreign relations law, international comity is
surrounded by a surprising amount of confusion,”
and “courts and commentators repeatedly confess
that they do not really understand what
international comity means.” William S. Dodge,
International Comity in American Law, 115 Colum.
L. Rev. 2071, 2072–2073 (2015); see also JP Morgan
Chase Bank v. Altos Hornos de Mexico, S.A. de C.V.,
412 F.3d 418, 423 (2d Cir. 2005) (International
comity “has never been well-defined.”); Republic of
Philippines v. Westinghouse Elec. Corp., 43 F.3d 65,
75 (3d Cir. 1994) (International comity is an “elusive
doctrine.”); Turner Entm’t Co. v. Degeto Film GmbH,

29
25 F.3d 1512, 1518 (11th Cir. 1994) (International
comity is “a rather vague concept.”). This confusion
has long presented “something of an embarrassment
for U.S. foreign relations law.” Dodge, International
Comity in American Law, supra, at 2076.
This confusion is manifest in the Second Circuit’s
ruling. As a friendly democratic foreign sovereign,
Korean rulings and judgments are consistently
recognized by our courts because the Korean legal
system provides substantive and procedural
protections similar to our own. See Daewoo Motor
Am., Inc. v. General Motors Corp., 459 F.3d 1249,
1259 (11th Cir. 2006); LG Display Co. v. Obayashi
Seikou Co., 919 F. Supp. 2d 17, 29–32 (D.D.C. 2013).
And, here, the parties presented neither argument
nor evidence that Korea’s actions against their
transaction
were
fraudulent
or
otherwise
undeserving of comity. They are not, and the parties
fully accepted them as valid. JA314–17, 322, 325,
330, 524–34, 538 & 541. Nevertheless, the tribunal
rested its awards on its determinations that Korea’s
actions were “unauthorized,” they violated due
process, and the sale of KS-3 was “perfectly lawful.”
JA176, 178–79, 204–09 & 225.
The Second Circuit approved this move,
essentially holding a foreign government is only
entitled to comity upon a determination after the
fact (by commercial arbitrators and our courts) that
it has correctly applied its own law. According to
that court, the MSIP Order could be disregarded
because the MSIP might have misconstrued Korean

30
law and agency actions may not even be entitled to
comity anyway. App. 11a.10
But our policy of recognizing foreign decrees –
rooted in international comity – is not limited to
judicial orders.
It necessarily applies to all
“legislative, executive, or judicial acts of another
nation.” Hilton, 159 U.S. at 164. The reason it is
not so limited is obvious from its purpose and
highlighted by the very dilemma created by the
awards. The Second Circuit’s ruling puts KTSAT to
a dire Hobson’s Choice: It must choose to violate
either the majority’s edicts or mandatory Korean
law. The MSIP Order held KS-3’s sale null and void
and ordered KTSAT to operate the satellite and repoint it “away from the Middle East.” JA87–90 &
756. Yet, the majority approved the sale, awarded
title to ABS, ordered KTSAT to deliver equipment to
fly the satellite to ABS, and enjoined KTSAT from
complying with Korean law and enforcement actions
because, it said, doing so would interfere with the
satellite’s operations.
The policy of comity exists to protect parties like
KTSAT from having to face such an impossible
compliance dilemma. Although an apparent comity
issue might be avoided “where a person subject to
regulation by two states can comply with the laws of
The District Court similarly had concluded that Korea’s
actions did not need to be recognized because the Order was
“an administrative and not a judicial order.” App. 42a.
10

31
both,” Hartford Fire Ins. Co. v. California, 509 U.S.
764, 799 (1993), “a state may not require a
person . . . to do an act in another state that is
prohibited by the law of that state,” Restatement
(Third) of Foreign Relations Law § 441 (1987).
The Second Circuit’s extreme and blithe rejection
of international comity puts it at the far edge of the
spectrum of how lower courts and this Court have
applied the international comity doctrine. Even
other
courts
that
have
eschewed
broad
interpretations of the comity doctrine acknowledge
they may not second guess final decrees of foreign
governments like Korea’s here. See, e.g., Gross v.
German Found. Indus. Initiative, 456 F.3d 363, 392–
394 (3d Cir. 2006) (noting court was “skeptical of
[the Eleventh Circuit’s] broad application of the
international comity doctrine,” but holding it would
“not review acts of foreign governments and [would]
defer to proceedings taking place in foreign
countries”); see also Mujica v. AirScan Inc., 771 F.3d
580, 602 (9th Cir. 2014) (declining “rigid”
requirements for international comity assessment);
cf. Michigan Cmty. Servs., Inc. v. N.L.R.B., 309 F.3d
348, 357 (6th Cir. 2002) (holding comity applied to
agency actions). And this Court has been emphatic
in the doctrine’s application in circumstances
involving far more dubious government actions.
Among diverse approaches to international comity
among the lower courts, the Second Circuit’s
troubling decision here, where Korea took clear,
express, and valid actions against the parties’

32
transaction, thus stands apart from how other
courts, including this one, have applied the doctrine
and is deeply inconsistent with the fundamental
policy animating it.
This outlier case thus presents an ideal vehicle
for this Court to bring needed clarity and uniformity
to the application of the international comity
doctrine. If the policy of recognizing foreign decrees
does not apply here, where a private arbitration
tribunal purports to override the actions of a friendly
democratic nation (with due process standards akin
our own) intended to protect its national interests in
peace and security and requires a party to violate
that nation’s mandatory export control laws, it is
hard to imagine a circumstance where and when it
would apply. Failing to apply the policy here sets a
dangerous precedent with far reaching and
untoward consequences at home and abroad. If it
were a U.S strategic satellite that a foreign entity
had absconded with in the face of orders of our
government mandating its return, we would not
tolerate any court confirming an award that declared
such a move “perfectly lawful” and U.S. actions to
recover the asset “unauthorized” and “poor and
unacceptable.” But we cannot expect our democratic
allies (such as, for example, Korea) to recognize our
government’s orders if our courts refuse to show
theirs any respect.
“Although comity” has thus far “elude[d] a precise
definition, its importance in our globalized economy

33
cannot be overstated.” Goss Int’l Corp. v. Man
Roland Druckmaschinen Aktiengesellschaft, 491 F.3d
355, 360 (8th Cir. 2007). It has been more than a
quarter century since this Court last seriously
engaged with international comity. Hartford Fire
Ins. Co., 509 U.S. at 794–799; see also Mujica, 771
F.3d at 599 (“The Supreme Court’s most recent
discussion of international comity was in Hartford
Fire.”). The time to clarify this critical rule and
promote consistency and uniformity in its
application is now, and this case presents the right
opportunity for the Court to do so. This Court
should grant the petition to dispel confusion on the
application of the international comity doctrine,
which is of critical importance to our Nation’s place
in the international legal system.
II. The Second Circuit Set A Dangerous
Precedent By Allowing An Arbitral Body
To Exceed Its Mandate To Override A
Foreign Nation’s Law Enforcement.
The Second Circuit’s approval of the awards
further injects uncertainty and confusion into the
proper scope of judicial review of arbitrators’
adherence to their mandates. As this Court has
made clear, the fundamental legitimacy of
arbitrations and awards – and why courts second
guess them only in limited circumstances – is
because they are creatures of contractual agreement.
See First Options of Chicago, Inc. v. Kaplan, 514
U.S. 938, 943 (1995). Arbitrators have “authority to

34
resolve disputes only because the parties have
agreed in advance to submit such grievances to
arbitration.”
AT&T Technologies, Inc. v.
Communications Workers, 475 U.S. 643, 648–649
(1986) (emphasis added).
Because arbitrators’ power is based on consent,
rather than coercion, “courts and arbitrators must
give effect to the contractual rights and expectations
of the parties,” Stolt-Nielsen S.A. v. AnimalFeeds
Int’l Corp., 559 U.S. 662, 683 (2010), who “have a
right to arbitration according to the terms for which
[they] contracted,” Western Employers Ins. v. Jeffries
& Co., 958 F.2d 258, 261 (9th Cir. 1992). Arbitrators
must therefore decide issues the parties actually
agree to submit to arbitration, and refrain from
dispensing free-wheeling justice on their own terms.
See Stolt-Nielsen, 559 U.S. at 671; Totem Marine
Tug & Barge, Inc. v. N. Am. Towing, Inc., 607 F.2d
649, 650 (5th Cir. 1979).
In other words, an arbitrator cannot act as a
“private
attorney
general
or
investigating
magistrate” to address matters outside his or her
“original mandate.” Born, International Commercial
Arbitration, supra, § 13.04 at 1998. Instead, an
arbitrator must “apply the applicable law, including
. . . provisions of mandatory law” and cannot rest an
award on “a legal theory not advanced by the
parties.” Id. These basic rules enforce the consentbased legitimacy of arbitrations and advance

35
fundamental interests in fairness and parties’ “right
to an opportunity to be heard.” Id. § 25.04 at 3250.
In recent years, and with the rise of the role
arbitrations play on our legal system, this Court has
expressed concern with awards that result from
disregard of contractual limitations on the scope of
arbitration and violations of these rules, and this
Court has issued guidance to lower courts
scrupulously to enforce arbitration mandates. See
Stolt-Nielsen S.A., 559 U.S. at 682–87. The Second
Circuit’s ruling is out of step with this Court’s
rulings and threatens to undermine consent-based
checks on an arbitrator’s authority recognized by
this Court. See Volt Information Sciences, Inc. v. Bd.
of Trustees of Leland Stanford Junior Univ., 489
U.S. 468, 479 (1989) (Arbitration is “a matter of
consent, not coercion, and parties are generally free
to structure their arbitration agreements as they see
fit.”). That unwarranted departure is especially
worrisome given the tribunal here exceeded its
limited mandate to reject lawful governmental
enforcement actions owed recognition under
longstanding public policy essential to comity among
nations.
The
parties’
arbitration
agreement
was
negotiated at arm’s length and carefully limited.
They agreed only to arbitrate disputes “aris[ing]
under” or “out of” their agreements – that is,
disputes over “the interpretation of the[ir] contract
and matters of performance.” In re Kinoshita, 287

36
F.2d 951, 953 (2d Cir. 1961); accord Mediterranean
Enterprises, Inc. v. Ssangyong Corp., 708 F.2d 1458,
1464 (9th Cir. 1983); see JA268 & 294.
And those are the issues the parties actually
submitted to the tribunal for resolution. They
brought claims and counterclaims for breach of
contract and damages, and their submissions,
evidence, and arguments centered on those issues.
JA130–36. The binding Terms of Reference agreed
on by the parties and tribunal that governed the
arbitration also expressly limited arbitration to
those performance issues. JA406.
But the awards are the byproduct of the
tribunal’s sua sponte resolution of issues worlds
away from the limited contract matters submitted
for arbitration. The majority determined Korea’s
actions were “unauthorized,” “ultra vires,” and
violated American constitutional due process.
JA176, 178, 204 & 206–09. It determined the
transfer of title to KS-3 was “perfectly lawful”
because “no existing mandatory Korean law,
regulation, rule, or practice was violated.” JA204.
Yet, the parties’ agreements, Terms of Reference,
and submissions not surprisingly do not authorize
the tribunal to decide whether or not Korea’s actions
were unauthorized, let alone comported with
American due process.
JA215.
The Terms of
Reference do not identify the validity of Korea’s
actions or whether they met American constitutional
due process standards as issues for arbitration.

37
JA406. And, again, unsurprisingly, the parties did
not ask the tribunal to decide any of those issues, or
submit evidence or argument on them. To the
contrary, the parties’ submissions and evidence
depended upon and uniformly demonstrated the
validity of Korea’s actions. The parties relied on
Korea’s actions in presenting their arguments on the
contract and damages issues they submitted for
resolution by the tribunal.
The Second Circuit overlooked this excess of
mandate in upholding the awards, even though
“[c]onsent is essential under the FAA because
arbitrators wield only the authority they are given.”
Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407, 1416
(2019). The parties never consented to have a
commercial arbitration tribunal sit as an
international supervisory appellate court with a
roving commission to offer subjective judgments of
Korea’s actions. They expressly agreed otherwise: to
limit arbitration exclusively to matters of contract
performance. Just as the tribunal ignored that its
job was “to interpret and enforce a contract, not to
make public policy,” Stolt-Nielsen, 559 U.S. at 672,
the Second Circuit disregarded this Court’s
instruction to keep arbitrators honest to their
mandates when it blessed awards that were based
on the express rejection of a foreign government’s
enforcement of its own laws. See Oetjen, 246 U.S. at
302–03; Ricaud, 246 U.S. at 309–10; Underhill, 168
U.S. at 252–54; Hilton, 159 U.S. at 164.

38
CONCLUSION
The Second Circuit sanctioned the tribunal’s
disregard for international comity through a foreign
affairs frolic and detour lightyears beyond its
limited, contractually-agreed mandate.
In doing so, that court further confused the
proper scope and application of the international
comity doctrine, with far-reaching and dangerous
consequences for foreign affairs and comity among
nations. The Second Circuit’s ruling invites arbitral
bodies to act as roving commissions to override
legitimate actions of foreign nations based on their
own subjective judgments under the pretext of
resolving mundane commercial disputes.
Given the fundamental importance of the
international comity doctrine as well as the everincreasing role of arbitration in dispute resolution,
the Court should take this opportunity to dispel
confusion over how courts are to review awards that
reject foreign decrees and mandate violations of
foreign law.
KTSAT respectfully requests the Court to grant
its petition for a writ of certiorari.

39
Respectfully submitted,
PAUL A. WERNER
Counsel of Record
IMAD S. MATINI
MATTHEW G. HALGREN
SHEPPARD, MULLIN, RICHTER &
HAMPTON LLP
2099 Pennsylvania Avenue
Suite 100
Washington, DC 20006
202.757.1900
pwerner@sheppardmullin.com
imatini@sheppardmullin.com
mhalgren@sheppardmullin.com
Counsel for Petitioners

December 11, 2019

APPENDIX

1a
A THE UNITED
APPENDIX A —Appendix
ORDER OF
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, FILED SEPTEMBER 12, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
18-2300-cv
At a stated term of the United States
Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States
Courthouse, 40 Foley Square, in the City of New York,
on the 12th day of September, two thousand nineteen.
KT CORPORATION, KTSAT CORPORATION,
Petitioners-Appellants,
v.
ABS HOLDINGS, LTD., ABS GLOBAL, LTD.,
Respondents-Appellees.

September 12, 2019, Decided
PRESENT:

RICHARD C. WESLEY,
DENNY CHIN,
JOSEPH F. BIANCO,
		
Circuit Judges.

2a
Appendix A
SUMMARY ORDER
Appeal from the United States District Court for the
Southern District of New York. (Schofield, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
orders of the district court are AFFIRMED.
Petitioners-appellants KT Corp. and KTSAT Corp.
(together, “KT”) appeal the district court’s opinions and
orders confirming two arbitration awards (the “Awards”)
in favor of respondents-appellees ABS Holdings, Ltd.
and ABS Global, Ltd. (together, “ABS”). KT argues that
the district court erred because (1) the arbitration panel
exceeded its powers in issuing the Awards, (2) the Awards
are based on a manifest disregard of the law, and (3) the
Awards violate public policy. We assume the parties’
familiarity with the underlying facts, procedural history,
and issues on appeal.
BACKGROUND
A. The Facts
The facts are largely undisputed. KT is a Korean
satellite communications provider that manages the Korean
satellite fleet. ABS is a satellite communications provider
incorporated in Bermuda and headquartered in Hong
Kong. In 2010, ABS and KT entered into two agreements
(the “Agreements”): (1) a Purchase Agreement whereby
KT agreed to sell to ABS a geostationary satellite (the

3a
Appendix A
“Satellite”), and (2) an Operations Agreement whereby
KT agreed to operate the Satellite on behalf of ABS.
Both agreements contained a New York choice-of-law
provision and a mandatory arbitration clause. Under the
Purchase Agreement, KT was responsible for obtaining
“all necessary licenses, consents and approvals for the sale
of the Satellite” and for “maintaining . . . all governmental
and regulatory licenses and authorizations required” to
perform its obligations. App. at 254, 261. The Purchase
Agreement further provided that the title of the Satellite
“shall transfer to ABS . . . [on] September 4, 2011, provided
that (a) KT receives the required payment . . . and (b) any
necessary approvals . . . have been received.” App. at 260.
On February 18, 2011, KT delivered the Satellite to
ABS. In September 2011, ABS paid the $500,000 purchase
price and KT delivered two bills of sale transferring title
of the Satellite to ABS.
On December 18, 2013, two years after the completion
of the transaction, the Republic of Korea’s Ministry of
Science, ICT and Future Planning (the “MSIP”) issued
an order (the “MSIP Order”) that, among other things,
declared the Purchase Agreement “null and void” on the
grounds it was “in violation of the mandatory law (Foreign
Trade Act)” (the “FTA”) because KT failed to obtain an
export permit. App. at 306. The MSIP Order cancelled
KT’s permission to use certain frequencies to operate
the Satellite and directed KT to return the Satellite to
its original operating condition. App. at 307.

4a
Appendix A
B. Arbitration Proceedings
On December 22, 2013, KT and ABS proceeded
to arbitration before the International Chamber of
Commerce (“ICC”) to resolve their disputes arising out of
the Agreements. On July 18, 2017, the three-member ICC
panel (the “panel”) issued a partial award (the “Partial
Award”), which dealt solely with the issue of title to the
Satellite. The panel concluded that ABS held title to and
thus owned the Satellite. The panel reasoned that title
lawfully passed to ABS in 2011 when all the conditions
precedent to the sale were met and the bills of sale were
issued because no mandatory Korean export permit
requirement was then in existence. In the alternative,
the panel concluded that even “if the MSIP Order was
mandatory law, the outcome in the . . . case would not be
changed . . . because the Order was issued ex post facto,
retroactively without time limit, and most importantly,
with no notice to the Parties,” which is “clearly in violation
of New York law.” App. at 207.
On March 9, 2018, the panel issued a final award (the
“Final Award”), which, by its terms, dealt with “all of the
issues and Parties’ claims not addressed in the Partial
Award.” App. at 793. The panel concluded, inter alia,
that KT breached the Agreements by failing to obtain
and maintain all necessary governmental approvals as
required under the Agreements, ABS took reasonable
mitigation efforts, and KT was liable for damages for
breaching the Agreements.

5a
Appendix A
C. Proceedings Below
KT filed a petition to vacate the Partial Award, and
ABS filed a cross-petition to confirm the it. Thereafter,
ABS filed a petition to confirm the Final Award, and KT
filed a cross-petition to vacate it.
The district court denied KT’s petition to vacate
the Partial Award and granted ABS’s cross-petition to
confirm the Partial Award. KT Corp. v. ABS Holdings,
Ltd. (“Partial Award Decision”), No. 17-civ-7859, 2018
U.S. Dist. LEXIS 115268, 2018 WL 3364390, at *7
(S.D.N.Y. July 10, 2018). Soon after, the district court
granted ABS’s petition to confirm the Final Award and
denied KT’s cross-petition to vacate the Final Award. KT
Corp. v. ABS Holdings, Ltd. (“Final Award Decision”),
No. 17-civ-7859, 2018 U.S. Dist. LEXIS 116386, 2018
WL 3435405, at *6 (S.D.N.Y. July 12, 2018). This appeal
followed.
DISCUSSION
KT argues that the district court erred in confirming
and not vacating the Partial and Final Awards because (1)
the panel exceeded its authority, (2) the Awards are based
on a manifest disregard of the law, and (3) the Awards
violate public policy. We are not persuaded.
A. Standard of Review
We review “a district court’s decision to confirm or
vacate an arbitration award de novo on questions of law and

6a
Appendix A
for clear error on findings of fact.” Nat’l Football League
Mgmt. Council v. Nat’l Football League Players Ass’n,
820 F.3d 527, 536 (2d Cir. 2016). “[A]n arbitration award
should be enforced, despite a court’s disagreement with
it on the merits, if there is a barely colorable justification
for the outcome reached.” Landy Michaels Realty Corp.
v. Local 32B-32J, Serv. Emps. Int’l, 954 F.2d 794, 797 (2d
Cir. 1992) (internal quotation marks omitted).
B. Applicable Law
The parties cross-petition to vacate or confirm
the Awards pursuant to the 1958 Convention on the
Recognition and Enforcement of Foreign Arbitral Award
(“New York Convention”) and the Federal Arbitration
Act (“FAA”). “[T]he FAA and the New York Convention
work in tandem, and they have overlapping coverage to
the extent that they do not conflict.” Sole Resort, S.A.
de C.V. v. Allure Resorts Mgmt., LLC, 450 F.3d 100, 102
n.1 (2d Cir. 2006) (internal quotation marks omitted).
Indeed, the FAA expressly incorporates the terms of the
New York Convention, see 9 U.S.C. § 201 et seq., and a
court applying the New York Convention may vacate an
arbitration award based on the grounds provided in the
FAA, see Scandinavian Reinsurance Co. v. Saint Paul
Fire & Marine Ins. Co., 668 F.3d 60, 70 (2d Cir. 2012).
The FAA provides that an arbitration award may be
vacated when “the arbitrators exceeded their powers, or
so imperfectly executed them that a mutual, final, and
definite award upon the subject matter submitted was not
made.” 9 U.S.C. § 10(a)(4). An award will not be vacated

7a
Appendix A
even where there is “serious error,” but only where the
panel “effectively dispense[s] [its] own brand of industrial
justice.” Stolt-Nielsen S. A. v. AnimalFeeds Int’l Corp.,
559 U.S. 662, 671, 130 S. Ct. 1758, 176 L. Ed. 2d 605 (2010)
(internal quotation marks omitted). Under the FAA, an
award may be vacated “when an arbitrator has exhibited a
manifest disregard of law.” Jock v. Sterling Jewelers Inc.,
646 F.3d 113, 121 (2d Cir. 2011). Vacatur on this ground
requires a showing that (1) “the arbitrators knew of a
governing legal principle yet refused to apply it or ignored
it altogether,” and (2) “the law ignored by the arbitrators
was well defined, explicit, and clearly applicable to the
case.” Zurich Am. Ins. Co. v. Team Tankers A.S., 811 F.3d
584, 589 (2d Cir. 2016).
The New York Convention provides that a court may
refuse to confirm an award where, among other things,
“[t]he recognition or enforcement of the award would be
contrary to the public policy of [the confirming] country.”
New York Convention, Art. V(2)(b). This affirmative
defense “must be construed very narrowly to encompass
only those circumstances where enforcement would violate
our most basic notions of morality and justice.” Telenor
Mobile Commc’ns AS v. Storm LLC, 584 F.3d 396, 411 (2d
Cir. 2009) (internal quotation marks omitted). The party
seeking to “vacate an arbitration award has the burden of
proof, and the showing required to avoid confirmation is
very high.” STMicroelectronics, N.V. v. Credit Suisse Sec.
(USA) LLC, 648 F.3d 68, 74 (2d Cir. 2011). Accordingly,
the defense is frequently invoked but rarely successful,
in view of the strong policy favoring arbitration. Telenor,
584 F.3d at 407-10.

8a
Appendix A
C. Application
We discuss the Partial and Final Awards in tandem
and conclude that the district court did not err in
confirming the Awards and in denying KT’s petition and
cross-petition to vacate the Awards.
1.

Exceeding Authority

KT argues that the panel exceeded its authority in
concluding that the MSIP Order was “unauthorized,”
“ultra vires,” and in violation of due process principles.
It argues that this conclusion was essential to the panel’s
determinations that ABS held title to the Satellite and
that KT breached the Agreements. We are unconvinced.
Despite arguing that the panel exceeded its authority,
counsel for KT refused to challenge the MSIP Order
before either an agency or court in the Republic of
Korea, and represented to counsel for ABS that “the
validity of the Purchase Contract is a subject matter to
be conclusively determined in the arbitration proceedings
pending between [KT] and ABS.” App. at 611-12. And even
assuming these statements regarding the MSIP Order did
exceed the panel’s authority, the panel’s conclusions did
not rest on them; they were part of the panel’s alternative
holding in “a coda at the end of the [Partial] Award.”
Partial Award Decision, 2018 U.S. Dist. LEXIS 115268,
2018 WL 3364390, at *4; see also App. at 206 (noting
that “the foregoing is sufficient to ground the majority’s
decision” and proceeding to discuss validity of MSIP
Order).

9a
Appendix A
The panel’s principal holding in the Partial Award was
that title passed to ABS in 2011 after the parties agreed
that all conditions precedent to the passing of title were
satisfied and bills of sale transferred, and that no laterpassed law or regulation affected the legal passage of title
to ABS. The panel’s conclusion in the Final Award was
that KT breached the Agreements by failing to “compl[y]
with [its] obligation to obtain and maintain authority
from the Korean government to operate the Satellite on
ABS’s behalf” as required under the Agreements. App.
at 748. These conclusions, based on the application of
New York law to the Agreements between the parties,
at least “arguably constru[ed] or appl[ied] the contract”
and thus did not exceed the panel’s authority. See Eastern
Associated Coal Corp. v. UMW, Dist. 17, 531 U.S. 57, 62,
121 S. Ct. 462, 148 L. Ed. 2d 354 (2000).
2.

Manifest Disregard of the Law

KT argues that the panel’s failure to give effect to
the MSIP Order manifestly disregarded Korean law,
New York contract law, and a presumption in favor of
the validity and regularity of agency actions. KT also
argues that the panel’s conclusion that KT is not entitled
to damages for technical engineering fees under the
Operations Agreement manifestly disregarded New York
contract law and equitable principles. These arguments
fail for substantially the reasons given by the district
court in its thorough and well-reasoned decisions. See
Partial Award Decision, 2018 U.S. Dist. LEXIS 115268,
2018 WL 3364390, at *5; Final Award Decision, 2018 U.S.
Dist. LEXIS 116386, 2018 WL 3435405, at *4-5. Under
Korean law, the mandatory and retroactive nature of the

10a
Appendix A
MSIP Order is far from “well defined, explicit, and clearly
applicable.” Zurich Am. Ins. Co., 811 F.3d at 589; see
App. at 170 (KT’s own legal expert noting that the MSIP
Order was a “controversial and debatable interpretation
of [Korean] law”). The panel applied New York law to
the Agreements, it did not ignore any well-defined and
clearly applicable law, Zurich Am. Ins. Co., 811 F.3d at
589, and there was at least a “colorable justification” for
the outcome reached, Landy Michaels Realty Corp., 954
F.2d at 797.
3.

Public Policy

KT argues that public policy requires deference to
foreign rulings and decrees and the panel violated public
policy by concluding that the MSIP Order did not serve to
unwind the transaction. Appellant’s Br. at 48 (arguing that
the panel was “not free simply to disagree with Korea’s
laws and enforcement actions”). We disagree.
The public policy defense “is limited to situations
where the contract as interpreted [by the arbitrators]
would violate some explicit public policy that is well
defined and dominant, and is to be ascertained by
reference to the laws and legal precedents and not from
general considerations of supposed public interests.”
United Paperworks Int’l Union v. Misco, Inc., 484 U.S.
29, 43, 108 S. Ct. 364, 98 L. Ed. 2d 286 (1987) (emphasis
added) (quotation marks and citations omitted). Though
it is the well-defined and dominant public policy of the
United States to enforce foreign court judgements not
repugnant to U.S. policy, see Voorhees v. Jackson, 35 U.S.
449, 472, 9 L. Ed. 490 (1836); Ackermann v. Levine, 788

11a
Appendix A
F.2d 830, 841 (2d Cir. 1986), the extent to which this policy
extends to the enforcement of foreign regulatory actions
is unclear. In any event, even assuming it is well-defined
policy to give effect to foreign administrative decrees, see
Bank of Augusta v. Earle, 38 U.S. 519, 589, 10 L. Ed. 274
(1839) (noting that “Courts of justice presume the tacit
adoption of [foreign laws]”), it is far from clear that the
MSIP Order was an enforceable administrative decree
under Korean law. Indeed, KT’s legal expert declared that
the position taken by MSIP that the Satellite is a Korean
export subject to the FTA is “a controversial and debatable
interpretation of the law,” and ABS’s legal expert testified
that ABS’s “failure to obtain an FTA export permit prior
to transferring title did not violate the FTA.” App. at 170.
Given this legal uncertainty, the panel’s conclusion that
the MSIP Order did not apply retroactively to unwind the
Agreements does not “violate our most basic notions of
morality and justice.” Telenor, 584 F.3d at 411.
Accordingly, the district court did not err in
confirming the Awards and in denying KT’s petitions to
vacate the Awards.
***
We have considered KT’s remaining arguments and
find them to be without merit. For the reasons set forth
above, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court

12a
Appendix b —Appendix
OPINIONBAND ORDER OF
THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK
GRANTING PETITION TO CONFIRM FINAL
AWARD AND DENYING CROSS-PETITION TO
VACATE FINAL AWARD, FILED JULY 12, 2018
United States District Court
Southern District of New York
17 Civ. 7859 (LGS)
KT CORPORATION, et al.,
Petitioners,
v.
ABS HOLDINGS, LTD., et al.,
Respondents.
July 12, 2018, Decided;
July 12, 2018, Filed
OPINION AND ORDER
LORNA G. SCHOFIELD, District Judge:
This case arises out of a Final Arbitration Award (the
“Final Award”) issued in a dispute between Petitioners KT
Corporation and KTSAT Corporation (collectively, “KT”)
and Respondents Asia Broadcast Satellite Global, Ltd.
and Asia Broadcast Satellite Holdings, Ltd. (collectively,

13a
Appendix B
“ABS”) over title to a geostationary satellite and related
issues. ABS petitions to confirm the Final Award and
moves to recoup attorneys’ fees and costs. KT crosspetitions to vacate the Final Award and seeks remand
of this case to the International Chamber of Commerce
(“ICC”). For the reasons stated below, ABS’s Petition to
confirm is granted, and KT’s cross-petition to vacate is
denied.
I.	BACKGROUND
A.

The Purchase and Operation Agreements and
the MSIP Order

KT is a Korean satellite communications provider
that manages the Korean satellite fleet. ABS is a satellite
communications provider that is incorporated in Bermuda
and based in Hong Kong. In 2010, ABS and KT entered
into two agreements: (1) a Purchase Agreement whereby
KT sold to ABS a geostationary satellite, then known as
KOREASAT-3 (“KS-3”); and (2) an Operation Services
Agreement, which provided that KT would operate KS-3
on behalf of ABS (collectively, “Agreements”). Both
agreements contain a mandatory arbitration clause, and
a choice of law provision selecting New York law without
giving effect to its conflict of law principles.
The Agreements contain various provisions related
to governmental authorizations and approvals related
to the sale and operation of KS-3. Under the Purchase
Agreement, KT is “responsible for obtaining and
maintaining . . . all governmental and regulatory licenses

14a
Appendix B
and authorizations required” to perform its obligations
under the Purchase Agreement. The Purchase Agreement
provides that the total purchase price is $500,000.
The Operation Agreement states that KT is obligated
to “obtain and maintain, in all material respects, all
necessary licenses, clearances, permits, authorizations
or permissions, that are applicable to KT with respect to
its performance of the Services under this Agreement”
and that KT will perform its obligations in exchange for
$800,000 annual fee and various technical engineering
fees provided in Exhibit B to the Operation Agreement.
In 2011, KT delivered to ABS the satellite and related
bills of sale, in exchange for $500,000.
On December 18, 2013, two years after the transaction
closed, Korea’s Ministry of Science, ICT and Future
Planning (“MSIP”) issued an order (the “MSIP Order”)
that, among other things, declared the Purchase
Agreement “null and void and in violation of the mandatory
law (Foreign Trade Act)” (“FTA”) because KT had failed
to obtain an FTA permit; cancelled KT’s allocation of the
spectrum for the KT Band; and directed KT to return the
satellite to its original operating condition. In 2016, the
Seoul Central District Court entered a criminal judgment
against key KT executives who had been involved in the
sale of KS-3.
On June 18, 2014, KT and ABS submitted issues
arising under the Purchase Agreement and the Operation
Agreement to the ICC Arbitration Panel (the “Panel”).
Neither party questioned the tribunal’s authority to issue
a determination on both the KS-3 title issue and claims

15a
Appendix B
under the Operation Agreement. The arbitral proceedings
were governed by New York law, seated in New York, and
presided over by a three-member tribunal.
B. The Partial Arbitration Award
The Panel, by majority,1 held that title transferred to
ABS in 2011 when all the contractual conditions precedent
to transfer were satisfied, and that no existing Korean
mandatory law was violated when title passed to ABS.
The Partial Award declared that ABS holds title to, and
thus owns, KS-3, and ordered KT not to interfere with
the ongoing operation of KS-3.
C.

The Opinion and Order, dated April 10, 2018

On October 12, 2017, KT petitioned in this action to
vacate the Partial Award and sought remand of this case
to the ICC. On November 6, 2017, ABS cross-petitioned to
confirm the Partial Award and moved to recover attorneys’
fees and costs.
By Opinion and Order, dated April 10, 2018 (the
“Opinion”), 2 KT’s petition was denied and ABS’s crossmotion was granted. The Opinion held that the Panel had
not exceeded its authority, because the parties had jointly
1. All further references in this Opinion to the “Panel” refer
to the panel acting by majority.
2. A corrected opinion was filed on July 10, 2018, correcting the
Opinion. The Corrected Opinion does not change the legal analysis
and the result of the Opinion.

16a
Appendix B
submitted the issue of KS-3 title to the Panel pursuant
to the arbitration provisions in the Agreements, and the
Panel’s holding that title had passed under New York law
did not depend on the validity of the MSIP Order. The
Opinion also concluded that the Panel had not manifestly
disregarded the law, because the Panel did not ignore the
MSIP Order; instead, the Panel concluded that the MSIP
Order was not the governing law because it did not to
apply when title passed, and did not apply retroactively
to unwind the sale of the satellite.
D.

The Final Award

On March 9, 2018, the Panel rendered the Final
Award, which “deals with all of the issues and the Parties’
claims not addressed in the Partial Award.” The 62-page
Final Award declared that (1) the Agreements were
properly terminated by ABS in response to KT’s breach;
(2) ABS took reasonable mitigation actions in light of KT’s
breaches, (3) ABS itself did not breach the Agreements;
(4) ABS was owed $1,036,237.15 in damages, comprised
of $748,564 in principal and $287,673.15 in interest
compounded since December 1, 2013 through the date of
the Final Award at a rate of 9% and (5) KT’s claims for
damages are meritless.
II. STANDARD
ABS brings the Petition to confirm the Final Award
pursuant to the 1958 Convention on the Recognition and
Enforcement of Foreign Arbitral Awards (the “New York
Convention”) and the Federal Arbitration Act (“FAA”), 9

17a
Appendix B
U.S.C. § 207 (incorporating the New York Convention).
KT cross-petitions to vacate under the FAA as well as
the overlapping grounds under the New York Convention.
Ordinarily, confirmation of an arbitration decision
is “a summary proceeding that merely makes what is
already a final arbitration award a judgment of the court.”
Citigroup, Inc. v. Abu Dhabi Inv. Auth., 776 F.3d 126,
132 (2d Cir. 2015). “A court’s review of an arbitration
award is . . . severely limited so as not to frustrate the
twin goals of arbitration, namely, settling disputes
efficiently and avoiding long and expensive litigation.”
United Bhd. of Carpenters & Joiners of Am. v. Tappan
Zee Constructors, L.L.C., 804 F.3d 270, 274-75 (2d Cir.
2015). “The arbitrator’s rationale for an award need not be
explained, and the award should be confirmed if a ground
for the arbitrator’s decision can be inferred from the facts
of the case.” D.H. Blair & Co. v. Gottdiener, 462 F.3d 95,
110 (2d Cir. 2006) (internal quotation marks omitted).
The New York Convention provides limited grounds
for refusing confirmation of an award, including that (1)
“[t]he award deals with a difference not contemplated
by or not falling within the terms of the submission
to arbitration,” (2) “the arbitral procedure was not in
accordance with the agreement of the parties” and (3)
“[t]he recognition or enforcement of the award would be
contrary to the public policy of that country.” New York
Convention, Art. V(1)(c)-(d), (2)(b). The FAA expressly
incorporates the terms of the Convention. See 9 U.S.C.
§ 201 et seq.

18a
Appendix B
The New York Convention does not articulate a basis
for vacating arbitration awards, but a court applying the
New York Convention may vacate an arbitration award
based on the grounds provided in the FAA. PDV Sweeny,
Inc. v. ConocoPhillips Co., No. 14 Civ. 5183, 2015 U.S. Dist.
LEXIS 116175, 2015 WL 5144023, at *6 (S.D.N.Y. Sept.
1, 2015), aff’d, 670 F. App’x 23 (2d Cir. 2016) (summary
order); see Scandinavian Reinsurance Co. v. Saint Paul
Fire and Marine Ins. Co., 668 F.3d 60, 70 (2d Cir. 2012).
Under Section 10 of the FAA, an arbitration award may be
vacated, as relevant here, when “the arbitrators exceeded
their powers, or so imperfectly executed them that a
mutual, final, and definite award upon the subject matter
submitted was not made.” 9 U.S.C. § 10(a)(4).
In addition to the statutory provisions, an award
“may be vacated when an arbitrator has exhibited a
manifest disregard of the law.” Jock v. Sterling Jewelers
Inc., 646 F.3d 113, 121 (2d Cir. 2011) (internal quotation
marks and citation omitted). This doctrine requires
more than “error or misunderstanding with respect to
the law.” Wallace v. Buttar, 378 F.3d 182, 189 (2d Cir.
2004). “[T]he award should be enforced, despite a court’s
disagreement with it on the merits, if there is a barely
colorable justification for the outcome reached.” T.Co.
Metals, L.L.C. v. Dempsey Pipe & Supply, Inc., 592 F.3d
329, 339 (2d Cir. 2010) (quoting Wallace, 378 F.3d at 190;
emphasis in the original). “A motion to vacate filed in a
federal court is not an occasion for de novo review of an
arbitral award.” Wallace, 378 F.3d at 189.
The party seeking to “vacate an arbitration award has
the burden of proof, and the showing required to avoid

19a
Appendix B
confirmation is very high.” STMicroelectronics, N.V. v.
Credit Suisse Sec. (USA) L.L.C., 648 F.3d 68, 74 (2d Cir.
2011). Similarly, the party opposing confirmation of an
arbitral award has the burden of proving that a defense
applies. Telenor Mobile Commc’ns AS v. Storm L.L.C.,
584 F.3d 396, 405 (2d Cir. 2009).
III.	DISCUSSION
A.	Petition to Vacate the Final Award
KT asserts two grounds as a basis for vacating the
Final Award:3 (1) the Panel acted in manifest disregard
of the New York contract law by failing to award KT the
purchase price or other compensation for KS-3 after
awarding ABS title to it; and (2) the Panel exceeded its
authority by resting its holding on the invalidity of the
MSIP Order. For the reasons below, KT has failed to
carry its significant burden of showing any valid reason
to vacate the Final Award.
1.	Exceeding Authority
Section 10(a)(4) of the FAA allows for vacatur “where
the arbitrators exceeded their powers, or so imperfectly
executed them that a mutual, final, and definite award
3. KT asserts a third ground for vacating the Award -- that it
contravenes public policy. This is not a basis for vacatur of an award
under the FAA, but rather a defense to confirmation of an award
under the New York Convention. See New York Convention, Art. V(2)
(b). Consequently, this argument is addressed below in the discussion
of ABS’s cross-petition to confirm the Final Award.

20a
Appendix B
upon the subject matter submitted was not made.” 9 U.S.C.
§ 10(a)(4).4 Applying that standard, the Supreme Court
held that “[i]t is not enough for petitioners to show that the
panel committed an error -- or even a serious error. It is
only when [an] arbitrator strays from interpretation and
application of the agreement and effectively dispense[s]
his own brand of industrial justice that his decision may
be unenforceable.” Stolt-Nielsen S.A. v. AnimalFeeds Int’l
Corp., 559 U.S. 662, 671, 130 S. Ct. 1758, 176 L. Ed. 2d 605
(2010) (internal quotation marks and citations omitted; all
but first alteration in the original). An award will not be
vacated as long as the panel “is even arguably construing
or applying the contract and acting within the scope of
[its] authority.” E. Associated Coal Corp. v. United Mine
Workers of Am., Dist. 17, 531 U.S. 57, 62, 121 S. Ct. 462,
148 L. Ed. 2d 354 (2000).
KT argues that the Panel acted beyond its authority
in issuing the Final Award because its holdings -- that
KT breached the Agreements, ABS undertook reasonable
mitigation, and KT owes ABS damages -- were ultimately
based on the Panel’s earlier finding in the Partial Award
that Korea’s actions to nullify the parties’ transaction
were improper. KT further argues that the Panel was not
empowered to make such a finding.
KT mischaracterizes the Final Award. The Panel
found that KT had breached the Agreements because
4. As this provision corresponds to the defense to confirmation
of an award in the New York Convention when “the arbitral procedure
was not in accordance with the agreement of the parties,” that
defense is not discussed again infra regarding the cross-motion to
confirm the Final Award. New York Convention, Art. V(1)(d).

21a
Appendix B
KT failed to adduce any evidence that it was capable
of providing “operational services to KS-3 pursuant to
the Operation[] Agreement,” or that KT “complied with
[its] obligation to obtain and maintain authority from
the Korean government to operate [KS-3] on ABS’s
behalf.” Whether or not Korea’s actions were lawful, or
even that the MSIP Order may have caused KT’s breach,
are irrelevant to the finding that KT did not fulfill its
contractual obligations. As with the Partial Award, the
Panel did not exceed its authority because the basis for
its holding was one of “construing [and] applying the
contract,” which was within the scope of the arbitration
provisions in the parties’ agreements.
KT also argues that the Panel acted beyond its
authority because it interpreted the MSIP Order -specifically, the Panel interpreted the order to require
the satellite’s coverage of the Korean Peninsula but not
the Middle East, where ABS’s customers are located.
The Panel apparently found this restriction rendered KT
unable to perform its obligations under the Agreements.
KT asserts that the Panel’s interpretation of the MSIP
Order is incorrect. Regardless of who is correct, as
discussed above, the Panel had other sufficient bases to
find that KT had breached the Agreements, which was a
question squarely within its authority.
2.

Manifest Disregard of the Law

A court may vacate an award based on manifest
disregard of the law “only if the court ‘finds both that (1)
the arbitrators knew of a governing legal principle yet

22a
Appendix B
refused to apply it or ignored it altogether, and (2) the
law ignored by the arbitrators was well defined, explicit,
and clearly applicable to the case.’” Zurich Am. Ins. Co.
v. Team Tankers A.S., 811 F.3d 584, 589 (2d Cir. 2016)
(quoting Wallace, 378 F.3d at 189). “[T]he award should
be enforced, despite a court’s disagreement with it on
the merits, if there is a barely colorable justification for
the outcome reached.” Wallace, 378 F.3d at 190 (internal
quotation marks omitted; emphasis in the original). KT
has failed to show that the Final Award was based on a
manifest disregard of the law and lacked any colorable
justification for its outcome.
a.	New York Law
KT argues that it is entitled to additional technical
engineering fees as a part of KS-3 purchase price, because
the Agreements provided for both an initial payment of
$500,000 plus technical engineering fees of almost $7
million payable over time. Under New York law, “a written
agreement . . . must be enforced according to the plain
meaning of its terms.” Greenfield v. Philles Records, Inc.,
98 N.Y.2d 562, 780 N.E.2d 166, 170, 750 N.Y.S.2d 565
(N.Y. 2002). Here, the Purchase Agreement provided for
a “Total Purchase Price” of $500,000, which the parties
agree was paid. The Operation Agreement provided that
KT would continue operating KS-3 on ABS’s behalf, in
exchange for various technical engineering fees detailed
in Exhibit B to the Operation Agreement.
The Panel’s conclusion that KT is not entitled to
additional technical engineering fees under the Operation

23a
Appendix B
Agreement is not in manifest disregard of the law. Under
the Operation Agreement, KT was obligated to provide
certain operational services and obtain and maintain
all necessary permits and authorizations to perform its
obligations thereunder. The Panel held that ABS had
properly terminated the agreement because KT had
breached these obligations. The Panel found that KT
had failed to adduce any evidence that it was capable
of providing operational services to KS-3 pursuant to
the Operation Agreement, or that KT complied with its
obligation to obtain and maintain authority from the
Korean government to operate KS-3 on ABS’s behalf.
The Panel concluded that “[b]ecause . . . Claimants
properly terminated the Operation[] Agreement,
Respondents’ claims for damages on the theory that they
were owed service fees after an improper termination of
the Agreement fail.” KT’s argument that the Panel did
not provide any explanation for the denial of additional
technical engineering fees is thus incorrect. KT’s
argument that it is entitled to the engineering fees under
an equitable theory of quantum meruit is similarly flawed,
because KT did not adduce evidence that it could have
or did provide the operational services in question. KT’s
argument that the Panel’s holding is in manifest disregard
of New York law, unjust and without colorable justification
is entirely without substance.
b.

Korean Law

KT seems to assert that the Final Award was in
manifest disregard of Korean law because the Panel
“simply . . . ignore[d] Korea’s mandatory laws . . . to unwind

24a
Appendix B
the transaction and punish the parties for undertaking it.”
This argument was made and rejected with regard to the
Partial Order on the grounds that (i) “the Panel did not
ignore the MSIP Order, but rather determined that it was
not a ‘governing legal principle’ because it did not apply
retroactively to unwind a completed transaction,” and (ii)
KT did not show that the relevant Korean law “was well
defined, explicit, and clearly applicable.” Zurich Am. Ins.
Co., 811 F.3d at 589. The Court’s holding and analysis are
incorporated by reference here. See Docket No. 80, at 12.
B. Cross-Petition to Confirm the Final Award
ABS cross-moves to confirm the Final Award. “[A]
district court is strictly limited to the seven defenses
under the New York Convention when considering whether
to confirm a foreign award,” Encyclopaedia Universalis
S.A. v. Encyclopaedia Britannica, Inc., 403 F.3d 85,
92 (2d Cir. 2005) (citing 9 U.S.C. § 208), including that
“[t]he recognition or enforcement of the award would be
contrary to the public policy of that country,” New York
Convention, Art. V(2)(b). Because KT has not carried its
burden to establish this defense, ABS’s cross-petition to
confirm the Final Award is granted.
The public policy defense “must be construed very
narrowly to encompass only those circumstances where
enforcement would violate our most basic notions of
morality and justice.” Telenor, 584 F.3d at 411 (internal
quotation marks omitted). “[A] judgment that tends clearly
to undermine the public interest, the public confidence in
the administration of the law, or security for individual

25a
Appendix B
rights of personal liberty or of private property is against
public policy.” Corporacion Mexicana de Mantenimiento
Integral, S. de R.L. de C.V. v. Pemex-Exploracion y
Produccion, 832 F.3d 92, 106 (2d Cir. 2016) (internal
quotation marks omitted).
KT arg ues that the Final Award violates the
public policy “of American courts to respect a valid
foreign decree.” Sea Dragon, Inc. v. Gebr. Van Weelde
Scheepvaartkantoor B.V., 574 F. Supp. 367, 372 (S.D.N.Y.
1983). This argument is identical to that raised in its
opposition to confirm the Partial Award, and therefore
rejected for the same reasons stated in the Opinion and
Order, dated April 10, 2018. See Docket No. 80, at 12-13.
Among the several factors listed in the Opinion that
support the Panel’s declining to apply the MSIP Order
was that it was issued without notice to ABS. KT now
asserts that ABS had notice of and participated in the
regulatory proceedings before the MSIP. ABS counters
that its “participation” was limited to “indirect attempts
at communicating with the MSIP via Korean counsel (the
MSIP refused to interact with ABS), which were aimed at
convincing the MSIP to continue to allow KT to operate
the Satellite on ABS’s behalf . . . .” Regardless of how this
conduct is characterized, it does not tip the balance toward
a finding that the Panel’s declining to apply the MSIP
Order “would violate our most basic notions of morality
and justice.” Eurocar Italia S.p.A. v. Maiellano Tours,
Inc., 156 F.3d 310, 315 (2d Cir. 1998) (internal quotations
marks omitted).

26a
Appendix B
iv. CONCLUSION
For the foregoing reasons, ABS’s Petition to confirm
the Final Award is GRANTED. KT’s Cross-Petition to
vacate the Final Award is DENIED. For reasons stated in
the Opinion and Order, dated April 10, 2018, ABS’s motion
for attorneys’ fees and costs is GRANTED. The parties
shall make their best efforts to agree on the amount of
fees and costs and shall report to the Court within 30 days
of this order whether they have done so.
The Clerk of Court is respectfully directed to close
the motion at Docket No. 71.
Dated: July 12, 2018
New York, New York
/s/ Lorna G. Schofield
Lorna G. Schofield
United States District Judge

27a
Appendix C OPINION AND
Appendix c — CORRECTED
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT OF NEW
YORK DENYING PETITION TO VACATE PARTIAL
AWARD AND GRANTING CROSS-PETITION TO
CONFIRM PARTIAL AWARD, FILED JULY 10, 2018
United States District Court
Southern District of New York
17 Civ. 7859 (LGS)
KT CORPORATION, et al.,
Petitioners,
v.
ABS HOLDINGS, LTD., et al.,
Respondents.
July 10, 2018, Decided;
July 10, 2018, Filed
CORRECTED OPINION AND ORDER
LORNA G. SCHOFIELD, District Judge:
This case arises out of a Partial Arbitration’s Award
(the “Award”) issued in a dispute between Petitioners KT
Corporation and KTSAT Corporation (collectively, “KT”)
and Respondents Asia Broadcast Satellite Global, Ltd.
and Asia Broadcast Satellite Holdings, Ltd. (collectively,

28a
Appendix C
“ABS”) over title to a geostationary satellite. KT petitions
to vacate the Award and seeks remand of this case to the
International Chamber of Commerce. KT cross-petitions
to confirm the Award and moves to recoup attorneys’ fees
and costs. For the reasons stated below, KT’s Petition to
vacate is denied; and ABS’s cross-petition to confirm and
its motion for attorneys’ fees and costs is granted.
I.

BACKGROUND
A.

The Purchase and Operation Agreements and
the MSIP Order

KT is a Korean satellite communications provider
that manages the Korean satellite fleet. ABS is a satellite
communications provider that is incorporated in Bermuda
and based in Hong Kong. In 2010, ABS and KT entered
into two agreements: (1) a Purchase Agreement whereby
KT sold to ABS a geostationary satellite, then known as
KOREASAT-3 (“KS-3”), and related baseband equipment;
and (2) an Operations Agreement, which provided that
KT would operate KS-3 on behalf of ABS (collectively,
“Agreements”). Both agreements contain a mandatory
arbitration clause, and a choice of law provision selecting
New York law without giving effect to its conflict of law
principles.
The Agreements contain various provisions related
to governmental authorizations and approvals related
to the sale and operation of KS -3. The Purchase
Agreement states that KT is obligated to “obtain all
necessary licenses, consents and approvals for the sale

29a
Appendix C
of the Satellite and the Baseband Equipment.” KT is
also “responsible for obtaining and maintaining . . . all
governmental and regulatory licenses and authorizations
required” to perform its obligations under the Purchase
Agreement. Title would transfer from KT to ABS only
if “any necessary approvals and licenses, including the
U.S. State Department approval and the approvals and
consents required for and during the Orbital Slot Use
Period, have been received.”
The parties received the U.S. State Department
approval in 2010. In 2011, KT delivered KS-3 to ABS in
exchange for $500,000. KT also delivered Bills of Sale for
KS-3 and the related baseboard equipment.
On December 18, 2013, two years after the transaction
closed, Korea’s Ministry of Science, ICT and Future
Planning (“MSIP”) issued an order (the “MSIP Order”)
that, among other things, declared the Purchase
Agreement “null and void and in violation of the mandatory
law (Foreign Trade Act)” (“FTA”) because KT had failed
to obtain an FTA permit; cancelled KT’s allocation of the
spectrum for the KT Band; and directed KT to return the
satellite to its original operating condition. In 2016, the
Seoul Central District Court entered a criminal judgment
against key KT executives who had been involved in the
sale of KS-3.
B. The Arbitration Award
The parties submitted the issue of title to KS-3 for
arbitration. Neither party questioned the tribunal’s

30a
Appendix C
authority to issue a determination on the title issue. The
arbitral proceedings were governed by New York law,
seated in New York, and presided over by a three-member
tribunal. The tribunal, by majority, issued the Award on
the sole issue of title, finding in favor of ABS. One of the
three tribunal members dissented.
In a letter dated March 14, 2016, KT explained to ABS
that it had determined not to appeal the MSIP Order,
stating “[W]e are of the view that the validity of the
Purchase Contract is a subject matter to be conclusively
determined in the arbitration proceedings between [KT]
and ABS, and not in any lawsuit filed by [KT] with an
administrative court in Korea.” Similarly, the Award
states, “The Parties agreed in their written submissions
that the Arbitral Tribunal has jurisdiction to consider
claims alleging breaches of the [Agreements], including
claims for ownership of the Satellite and Baseband
Equipment.”
The 116-page Award is briefly summarized as follows:
the panel, by majority,1 held that title transferred to ABS
in 2011 when all the contractual conditions precedent
to transfer were satisfied, and that no existing Korean
mandatory law was violated when title passed to ABS.
Specifically, the conditions satisfied in 2011 included
the following: KT delivered KS-3 to ABS; ABS paid the
purchase price of $500,000; U.S. regulatory approval for
the sale of KS-3 as a U.S. export had been secured in
1. All further references in this Opinion to the “Panel” refer
to the panel acting by majority.

31a
Appendix C
2010; KT represented that it had obtained all necessary
approvals; and KT delivered to ABS, and ABS formally
accepted, two warranty Bills of Sale, which effected the
transfer of title to KS-3. No Korean mandatory law was
violated when title passed in 2011 because (1) no Korean
regulatory authority had questioned or required an FTA
permit of the prior purchase and sale between ABS
and KT of the KS-1 and KS-2 satellites, (2) no Korean
authority mentioned any approval requirement in 2011
when the highly publicized transfer of KS-3 occurred,
(3) the parties were unaware of any requirement for
Korean approval in 2011 and (4) the MSIP Order was
not issued until two years after title to KS-3 had passed.
The Award observed: “It cannot forever be open to a
government agency to discovery new ‘mandatory rules’
. . . and invoke them long after the fact as a basis for
invalidating a contract already fulfilled by the parties
. . . thereby rendering any such agreement illusory.” The
Award further explained, “[T]he way to understand this
set of facts as a matter of law is to view the FTA export
permit requirement as a new rule, which was not the law
when the Purchase Contract entered into force, or when
the contractually required conditions for passage of title
to ABS were all met . . . .”
The Award (1) declared that ABS holds title to, and
thus owns, KS-3 and the related baseband equipment, (2)
ordered KT not to interfere with the ongoing operation
of KS-3 and (3) ordered KT to deliver to ABS the related
baseband equipment and all associated flight data related
to the operation of KS-3.

32a
Appendix C
II. STANDARD
The parties cross-petition to vacate or confirm the
Award pursuant to the 1958 Convention on the Recognition
and Enforcement of Foreign Arbitral Award (“New York
Convention”) and the Federal Arbitration Act (“FAA”). 2
Ordinarily, confirmation of an arbitration decision is “a
2. The Corrected Opinion and Order applies the New York
Convention to the parties’ motions, instead of the Inter-American
Convention on International Commercial Arbitration (“InterAmerican Convention”). “The domestic enforcement of foreign
arbitral awards is governed by two international Conventions:
the Inter-American Convention . . . and the Convention on the
Recognition and Enforcement of Foreign Arbitral Awards (‘New
York Convention’).” Corporacion Mexicana de Mantenimiento
Integral, S. de C.V. v. Pemex-Exploracion y Producion, 832 F.3d
92, 105 (2d Cir. 2016) (citation omitted). Under Section 305 of the
FAA, the Inter-American Convention applies where the parties are
“citizens of a State or States that have ratified” the Inter-American
Convention and “are member States of the Organization of American
States.” 9 U.S.C. § 305(1). However, “[i]n all other cases the [New
York Convention] shall apply.” Id. § 305(2). Because the parties
are neither citizens of a state that has ratified the Inter-American
Convention nor member states of the Organization of American
States, the New York Convention applies.
Because “[t]here is no substantive difference between [the
Inter-American Convention and the New York Convention],” PemexExploracion y Producion, 832 F.3d at 105, “precedents under one
are generally applicable to the other,” Coporacion Mexicana de
Mantenimiento Integral, S. de R.L. de C.V. v. Pemex-Exploracion
y Produccion, 962 F. Supp. 2d 642, 654 (S.D.N.Y. 2013) (citing
Productos Mercantiles e Industriales, S.A. v. Faberge USA, Inc.,
23 F.3d 41, 45 (2d Cir. 1994)). Accordingly, the correction does not
change the legal analysis or the outcome of the original opinion.

33a
Appendix C
summary proceeding that merely makes what is already
a final arbitration award a judgment of the court.”
Citigroup, Inc. v. Abu Dhabi Inv. Auth., 776 F.3d 126, 132
(2d Cir. 2015). “A court’s review of an arbitration award is
. . . severely limited so as not to frustrate the twin goals
of arbitration, namely, settling disputes efficiently and
avoiding long and expensive litigation.” United Bhd. of
Carpenters & Joiners of Am. v. Tappan Zee Constructors,
LLC, 804 F.3d 270, 274-75 (2d Cir. 2015). “The arbitrator’s
rationale for an award need not be explained, and the
award should be confirmed if a ground for the arbitrator’s
decision can be inferred from the facts of the case.” D.H.
Blair & Co. v. Gottdiener, 462 F.3d 95, 110 (2d Cir. 2006)
(internal quotation marks omitted).
The New York Convention provides limited grounds
for refusing confirmation of an award, including that (1)
“[t]he award deals with a difference not contemplated
by or not falling within the terms of the submission
to arbitration,” (2) “the arbitral procedure was not in
accordance with the agreement of the parties” and (3)
“[t]he recognition or enforcement of the award would be
contrary to the public policy of that country.” New York
Convention, Art. V(1)(c)-(d), (2)(b). The FAA expressly
incorporates the terms of the New York Convention. See
9 U.S.C. § 201 et seq.
The New York Convention does not articulate a basis
for vacating arbitration awards, but a court applying the
New York Convention may vacate an arbitration award
based on the grounds provided in the FAA. PDV Sweeny,
Inc. v. ConocoPhillips Co., No. 14 Civ. 5183, 2015 U.S. Dist.

34a
Appendix C
LEXIS 116175, 2015 WL 5144023, at *6 (S.D.N.Y. Sept.
1, 2015), aff’d, 670 F. App’x 23 (2d Cir. 2016) (summary
order); see Scandinavian Reinsurance Co. Ltd. v. Saint
Paul Fire and Marine Ins. Co., 668 F.3d 60, 70 (2d Cir.
2012). Under Section 10 of the FAA, an arbitration award
may be vacated, as relevant here, when “the arbitrators
exceeded their powers, or so imperfectly executed them
that a mutual, final, and definite award upon the subject
matter submitted was not made.” 9 U.S.C. § 10(a)(4).
In addition to the statutory provisions, an award “may
be vacated when an arbitrator has exhibited a manifest
disregard of the law.” Jock v. Sterling Jewelers Inc., 646
F.3d 113, 121 (2d Cir. 2011) (internal quotation marks and
citation omitted). This doctrine requires more than “error
or misunderstanding with respect to the law.” Wallace v.
Buttar, 378 F.3d 182, 189 (2d Cir. 2004). An arbitration
award should be confirmed as long as there is “a barely
colorable justification” for the award. Gottdiener, 462
F.3d at 110. “A motion to vacate filed in a federal court is
not an occasion for de novo review of an arbitral award.”
Wallace, 378 F.3d at 189.
The party seeking to “vacate an arbitration award has
the burden of proof, and the showing required to avoid
confirmation is very high.” STMicroelectronics, N.V. v.
Credit Suisse Sec. (USA) LLC, 648 F.3d 68, 74 (2d Cir.
2011). Similarly, the party opposing confirmation of an
arbitral award has the burden of proving that a defense
applies. Telenor Mobile Commc’ns AS v. Storm LLC, 584
F.3d 396, 405 (2d Cir. 2009).

35a
Appendix C
III.	DISCUSSION
A.	Petition to Vacate the Award
The Panel’s factual findings and legal conclusions
that title to KS-3 passed to ABS in 2011 are largely
undisputed. The sole issue, in substance, is whether KT
has sustained its burden to show that the Panel lacked
any colorable justification for refusing to apply the MSIP
Order retroactively to reverse the sale of the satellite,
which had occurred two years before the MSIP Order.
For the reasons stated in the Award and summarized
above, the Award easily meets the standard of having
“any colorable justification.” Gottdiener, 462 F.3d at 110.
KT asserts two grounds as a basis for vacating the
Award:3 (1) the Panel exceeded its authority by holding that
the MSIP Order was unauthorized and unconstitutional,
and (2) the Panel acted in manifest disregard of the
law by failing to recognize mandatory Korean law, and
disregarding New York law concerning transfer of title
and illegal contracts. For the reasons explained below, KT
has failed to carry its significant burden of showing that
any valid basis exists to vacate the Award.

3. KT asserts a third ground for vacating the Award -- that
it contravenes public policy. This is not grounds for vacatur of an
award under the FAA, but rather a defense to confirmation of an
award under the New York Convention. See New York Convention,
Art. V(2)(b). Consequently, this argument is addressed below in the
discussion of ABS’s cross-petition to confirm the Award.

36a
Appendix C
1.	Exceeding Authority
Section 10(a)(4) of the FAA allows for vacatur “where
the arbitrators exceeded their powers, or so imperfectly
executed them that a mutual, final, and definite award
upon the subject matter submitted was not made.” 9 U.S.C.
§ 10(a)(4).4 Applying that standard, the Supreme Court has
held that “[i]t is not enough for petitioners to show that the
panel committed an error -- or even a serious error. It is
only when [an] arbitrator strays from interpretation and
application of the agreement and effectively dispense[s]
his own brand of industrial justice that his decision may
be unenforceable.” Stolt-Nielsen S.A. v. AnimalFeeds
Int’l Corp., 559 U.S. 662, 671, 130 S. Ct. 1758, 176 L. Ed.
2d 605 (2010) (internal quotation marks and citations
omitted; alterations in original). An award will not be
vacated as long as the panel “is even arguably construing
or applying the contract and acting within the scope of
[its] authority.” E. Associated Coal Corp. v. United Mine
Workers of Am., Dist. 17, 531 U.S. 57, 62, 121 S. Ct. 462,
148 L. Ed. 2d 354 (2000).
Here, the Panel did not exceed its authority. The
parties submitted the issue of title to KS-3 for arbitration.
Neither party questioned the tribunal’s authority to
determine title pursuant to the arbitration provisions in
the parties’ agreements or for any reason. KT explicitly
4. As this provision corresponds to the defense to confirmation
of an award in the New York Convention when “the arbitral procedure
was not in accordance with the terms of the agreement of the parties,”
that defense is not discussed again infra regarding the cross-motion
to confirm the Award. The New York Convention, Art. V(1)(d).

37a
Appendix C
acknowledged and invoked the tribunal’s authority to
determine title. The Panel determined only the issue of
title, and no other independent claims, such as the tort
claims, that the parties had raised.
KT’s quarrel is that, in deciding the issue of title,
the Panel concluded that the MSIP Order was invalid,
specifically that MSIP was not the Korean governmental
agency with authority over export approvals, and that
MSIP’s approval requirements, because they were
retroactive, violated American notions of due process.
In effect, KT argues that the Panel was empowered to
determine which of the parties holds title to KS-3, but
was not authorized to consider all of the possible reasons
because certain arguments were off limits. Regardless of
the merits of this argument, it is misplaced because the
Panel’s principal holding did not depend on the validity
of the MSIP Order. The Panel applied New York law, as
provided by the parties’ agreements, to determine that
title had passed to ABS in 2011, and that a post facto
regulation or decree -- whether valid or not -- did not
reverse the completed passage of title, which had occurred
two years earlier. The Panel found that all conditions
precedent to the transfer of title had been satisfied and
construed the contractual requirements for all “necessary
approvals and licenses” to mean those necessary at the
time title passed and not some indefinite time in the future.
The Panel held only in the alternative that, “even if
Korean law governed, which it did not,” the MSIP Order
was unauthorized. Similarly, the Panel’s due process
discussion appears as a coda at the end of the Award,

38a
Appendix C
“[e]ven if it is assumed, against the weight of evidence and
for the sake of the argument, that the MSIP Order” was
mandatory law that overrides contractual obligations. The
Panel did not exceed its authority because its principal
holding was squarely one of “construing [and] applying the
contract,” which was within the scope of the arbitration
provisions in the parties’ agreements. See E. Associated
Coal Corp., 531 U.S. at 62.
2.

Manifest Disregard of the Law

A court may vacate an award based on manifest
disregard of the law “only if the court finds both that (1)
the arbitrators knew of a governing legal principle yet
refused to apply it or ignored it altogether, and (2) the
law ignored by the arbitrators was well defined, explicit,
and clearly applicable to the case.” Zurich Am. Ins. Co.
v. Team Tankers A.S., 811 F.3d 584, 589 (2d Cir. 2016)
(internal quotation marks omitted). “[T]he award should
be enforced, despite a court’s disagreement with it on the
merits, if there is a barely colorable justification for the
outcome reached.” Wallace, 378 F.3d at 190 (emphasis in
the original). KT has failed to show that the Award was
based on manifest disregard of the law and lacked any
colorable justification for awarding title to ABS.
a.

Korean Law

KT argues that the Panel disregarded the MSIP Order,
the FTA and related Korean regulations. This argument
is unpersuasive because as discussed above, the Panel did
not ignore the MSIP Order, but rather determined that

39a
Appendix C
it was not a “governing legal principle” because it did not
apply retroactively to unwind a completed transaction.
Nor has KT shown that the relevant Korean law “was
well defined, explicit, and clearly applicable to the case.”
Zurich Am. Ins. Co., 811 F.3d at 589. KT’s own legal
expert, Professor Kyongjin Choi, stated that the MSIP
Order, which stated that the sale of KS-3 was a Korean
export regulated by the FTA, was a “controversial and
debatable interpretation of the [Korean] law.” Also, the
MSIP Order was not “clearly applicable to the case” at
the relevant time, because the order did not exist, nor
was it even contemplated, when KT transferred title to
the satellite. The Panel’s decision not to apply the MSIP
Order retroactively was not in manifest disregard of well
defined, explicit and clearly applicable governing law.
b.	P r e s u m p t i o n o f Va l i d i t y a n d
Regularity in Government Action
KT argues that, in finding the MSIP Order to be
invalid, the Award disregards the presumptions of
validity and regularity enjoyed by agency actions. This
argument fails for two reasons. First, KT has not cited
any authority for the proposition that the presumption of
the validity of agency action also requires its retroactive
application. To the contrary, “[t]here is no principle of law
better settled, than that every act of a court of competent
jurisdiction, shall be presumed to have been rightly done
till the contrary appears.” Voorhees v. Jackson, 35 U.S.
449, 449, 9 L. Ed. 490 (1836) (emphasis added).
Second, as discussed above, the Panel’s findings
concerning the validity of the MSIP Order were not

40a
Appendix C
necessary to the Panel’s primary holding that all
conditions precedent had been satisfied at the time title
passed. To the extent that the Panel may have disregarded
a presumption in reaching a secondary and alternative
basis for the Award, that does not undermine the principle
justification for the outcome reached. See Wallace, 378
F.3d at 190 (“[T]he award should be enforced, despite a
court’s disagreement with it on the merits, if there is a
barely colorable justification for the outcome reached.”)
c.	New York Contract Law
KT argues that the Panel disregarded New York law
in finding an allegedly illegal contract to be enforceable.
This argument is yet another way of arguing that the
MSIP Order should have been applied retroactively to
render the Purchase Agreement “illegal” and reverse the
transfer of title. As discussed above, KT has failed to show
that the Award, and its refusal to apply the MSIP Order
retroactively, lacked any colorable justification.
B. Cross-Petition to Confirm the Award
ABS cross-moves to confirm the Award. “[A] district
court is strictly limited to the seven defenses under
the New York Convention when considering whether to
confirm a foreign award,” Encyclopaedia Universalis
S.A. v. Encyclopaedia Britannica, Inc., 403 F.3d 85,
92 (2d Cir. 2005) (citing 9 U.S.C. § 208), including that
“the recognition or enforcement of the award would be
contrary to the public policy of that country,” New York
Convention, Art. V(2)(b). Because KT has not carried its

41a
Appendix C
burden to establish this defense, ABS’s cross-petition to
confirm the Award is granted.
The public policy defense “must be construed very
narrowly to encompass only those circumstances where
enforcement would violate our most basic notions of
morality and justice.” Telenor, 584 F.3d at 411 (internal
quotation marks omitted). “[A] judgment that tends clearly
to undermine the public interest, the public confidence in
the administration of the law, or security for individual
rights of personal liberty or of private property is against
public policy.” Corporacion, 832 F.3d at 106.
KT argues that the Award violates the public policy
“of American courts to respect a valid foreign decree.” Sea
Dragon, Inc. v. Gebr. Van Weelde Scheepvaartkantoor
B.V., 574 F. Supp. 367, 372 (S.D.N.Y. 1983). KT’s argument
is unpersuasive because the policy of American courts
to recognize foreign orders -- whether judicial or
administrative -- is not absolute. Foreign judgments are
entitled to recognition by U.S. courts, except in specified
circumstances. U.S. courts may refuse to recognize
foreign judgments where the defendant did not receive
sufficient notice of the proceedings to enable it to defend,
the judgment is repugnant to the public policy of the
United States or the foreign proceeding was contrary
to the parties’ agreement to submit the controversy to
another forum. Restatement (Third) of Foreign Relations
Law §§ 481-482 (1987); accord Restatement (Fourth) of
Foreign Relations Law: Jurisdiction Appendix TD No.
1 (2014) §§ 401, 404. As foreign administrative orders
may carry less force than foreign judicial orders, at

42a
Appendix C
least the same exceptions to enforcement must apply.
See Restatement (Third) § 481, Comment f (“[N]o rule
either requires or prevents recognition and enforcement
of decisions of foreign tribunals that do not possess all
the characteristics of courts. A number of United States
decisions have . . . recognized and enforced decisions of such
tribunals, in circumstances where the essential fairness
and reliability of the proceeding was established.”). 5
The MSIP Order is an administrative and not a
judicial order. It was issued without notice to ABS. KT
refused ABS’s request to appeal the MSIP Order in the
Korean courts after it was issued, and KT instead asserted
that the issue of the validity of the Purchase Contract
was to be “conclusively determined” in arbitration. Now
KT maintains that the arbitrators had no choice but to
enforce the MSIP Order retroactively and that MSIP has
the last word as to what approvals were required in 2011
for the sale of the satellite. If KT’s position were adopted,
ABS would have had no avenue to protect or even assert
its rights, and the parties’ agreement to arbitrate any
5. The most recent tentative draft of the Restatement (Fourth)
of Foreign Relations Law: Jurisdiction § 401 TD No 1 (2014), similarly
provides:
The general principles underlying recognition,
pa r ticu la rly the desi re t o avoid unnecessa r y
duplication of legal proceedings while protecting the
rights of persons subject to an adverse foreign decision
or order, apply in cases . . . where the process in the
administrative proceeding, including the disinterested
and independent nature of the tribunal, satisfies the
general criteria for judgment recognition.

43a
Appendix C
dispute between them would be undermined. KT has failed
to show that enforcement of the Award, which declined
to apply the MSIP Order, “would violate our most basic
notions of morality and justice.”6 Europcar Italia, S.p.A.
v. Maiellano Tours, Inc., 156 F.3d 310, 315 (2d Cir. 1998)
(internal quotation marks omitted); accord PDV Sweeny,
Inc., 2015 U.S. Dist. LEXIS 116175, 2015 WL 5144023,
at *11 (internal quotation marks and citations omitted).
That enforcement of the Award will result in KT’s
being unable to comply with both the Award and the
MSIP Order does not change the analysis. While KT is
in an unenviable position, it has not cited any persuasive
authority that its dilemma is a defense to enforcement of
an arbitration award. Cf. Telenor Mobile Commc’ns AS
v. Storm LLC, 524 F. Supp. 2d 332, 357 (S.D.N.Y. 2007)
(“[E]ven if there is a direct conflict between Ukranian
law and the Final Award, New York’s public policy does
not call for vacatur here. First, it is unclear whether an
established public policy against enforcement of arbitral
awards that compel a violation of foreign law even exists
in New York.”), aff’d, 584 F.3d 396 (2d Cir 2009). KT relies
on Sea Dragon to support the argument that the Award
should be vacated because it exposes KT “to the dilemma
6. The Award also addressed difficult issues that pose a greater
challenge to the principle of comity underlying the recognition
of foreign judgments and order -- finding, for example, that the
proceedings leading to the MSIP Order were not disinterested
and independent in view of the political environment, and that the
proceedings violated American notions of due process. This Opinion
does not need to reach those issues to conclude that KT has not
sustained its burden of proving an applicable defense to confirmation
of the Award.

44a
Appendix C
of conflicting orders.” 574 F. Supp. at 372. The court in
Telenor rejected the same argument, stating:
First, Sea Dragon is not controlling law, as
it does not bind this Court, was decided over
two decades ago, and has not been relied
upon for the relevant proposition since it was
decided. In addition, although Storm claims
that the facts of this case “parallel[ ]” those
in Sea Dragon, the facts of Sea Dragon vary
significantly from the facts of this case. While
the district court in Sea Dragon found that
the petitioner in that case had been given
adequate notice and an opportunity to be
heard in the Dutch proceedings, Telenor had
neither notice nor an opportunity to respond
in the Ukrainian proceedings. Moreover, while
the Sea Dragon court specifically found that
the Dutch order was obtained “in compliance
with ... American due process standards,” the
Ukrainian litigation, which was undertaken in a
collusive and vexatious manner, did not comply
with those standards.
Id. at 348 (internal citations omitted). Similarly here, Sea
Dragon is not controlling law, has not been relied upon for
many years, and is distinguishable because ABS did not
have notice or an opportunity to respond to the MSIP Order.
C.

Attorneys’ Fees and Costs

ABS’s request for attorneys’ fees and costs it incurred
in opposing KT’s Petition and bringing its cross-petition

45a
Appendix C
is granted. “In federal practice, the general rule is
that each party bears his or her own attorneys[’] fees.
However, the parties may agree by contract to permit
recovery of attorneys’ fees. If the contract is valid under
state law, the federal court will enforce the contract as to
attorneys’ fees.” Regan v. Conway, 768 F. Supp. 2d 412,
415 (E.D.N.Y. 2011) (citing McGuire v. Russell Miller,
Inc., 1 F.3d 1306 (2d Cir. 1993)). The parties did just
that in the Purchase Agreement, which provides that
“[a]ny costs, fees, or taxes incidental to enforcing the final
award shall be charged against the Party resisting such
enforcement.” KT resisted the enforcement of the Award
through its Petition and opposition to the cross-petition.
KT is contractually bound to bear attorneys’ fees and
costs associated with this action.
iv	 CONCLUSION
For the foregoing reasons, KT’s Petition to vacate the
Award is DENIED. ABS’s crosspetition to confirm the
Award is GRANTED, and ABS’s motion for attorneys’
fees and costs is GRANTED.
The Clerk of Court is respectfully directed to close the
motions at Docket Nos. 6 and 41, and strike Docket No. 56.
Dated: July 10, 2018
New York, New York
/s/ Lorna G. Schofiled
Lorna G. Schofiled
United States District Judge

